<html>
<title> - BLACKWATER NATIONAL WILDLIFE REFUGE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                  BLACKWATER NATIONAL WILDLIFE REFUGE

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 April 19, 2001, in Cambridge, Maryland

                               __________

                           Serial No. 107-17

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
71-815 DTP                  WASHINGTON : 2001
_______________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone (202) 512-1800  Fax: (202) 512-2250
              Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. "Billy" Tauzin, Louisiana       Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. "Billy" Tauzin, Louisiana           Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 19, 2001...................................     1

Statement of Members:
    Gilchrest, Wayne T., a Representative in Congress from the 
      State of Maryland..........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Ashe, Daniel M., Chief, National Wildlife Refuge System, U.S. 
      Department of the Interior.................................     3
        Prepared statement of....................................     5
    Johnson, W. Ladd, Chairman, Maryland Waterfowl Commission, 
      and President, Resource Management, Inc....................    18
        Prepared statement of....................................    20
    Thompson, Edith R., Exotic/Invasive Species Policy 
      Coordinator, Maryland Department of Natural Resources......     7
        Prepared statement of....................................    10
    Tillier, Ron, President, Friends of Blackwater National 
      Wildlife Refuge, Inc.......................................    12
        Prepared statement of....................................    14
    Willey, Guy W., Sr., Wildlife Technician.....................    21
        Prepared statement of....................................    25


INVASIVE SPECIES AND THE MAINTENANCE BACKLOG AT THE BLACKWATER NATIONAL 
                       WILDLIFE REFUGE, MARYLAND

                              ----------                              


                        Thursday, April 19, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                          Cambridge, Maryland

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
the Visitor's Center, Blackwater National Wildlife Refuge, The 
Honorable Wayne T. Gilchrest [Chairman of the Subcommittee] 
presiding.
    Mr. Gilchrest. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans will come to order.
    There is a few more seats in the room, actually quite a few 
more seats, so if there is anybody in the back that wants to 
move up a little bit or if you don't want to stand for the 
hearing, there is plenty of room.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. I want to thank everyone for coming today. 
This is a field hearing of the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans. The Subcommittee exercises 
the House Resources Committee legislative jurisdiction over 
fisheries and wildlife, including refuges, marine affairs, and 
oceanography. On the executive side that translates into 
jurisdiction over most Fish and Wildlife Service programs and 
the coastal and ocean programs of the National Oceanic and 
Atmospheric Administration.
    Recently the Subcommittee held a hearing on the operational 
and maintenance needs of the National Wildlife Refuge System. 
This hearing follows up and uses the Blackwater Refuge as an 
example of specific operational and maintenance needs and how 
well those needs are met by the Fish and Wildlife Service.
    Given the importance of refuges such as Blackwater in 
maintaining the health of the Atlantic Migratory Bird Flyway, 
we think it is a perfect example to review in more detail. The 
fact that I represent Dorchester County, where the refuge is 
located, made the decision even easier.
    Today's hearing is on the operation and maintenance of the 
Blackwater National Wildlife Refuge. The Subcommittee is 
particularly interested in hearing about three items: the 
operational and maintenance needs of the refuge; the control of 
harmful invasive species at the refuge, particularly nutria; 
and the recreational opportunities that provide people an 
opportunity to visit the refuge.
    We are fortunate to have a panel of witnesses today who 
have extensive knowledge of this refuge and the management of 
conservation lands. I look forward to hearing their testimony 
concerning the operation and maintenance needs, invasive 
species control problems, and recreational uses of Blackwater, 
and in a broader context the management of conservation lands 
throughout the United States.
    And I also truly welcome the panel this morning. We look 
forward to the testimony the witnesses will give us. I also 
want to thank Glenn Carowan for his hospitality in the 
beautiful Blackwater Refuge in Dorchester County on the Eastern 
Shore of Maryland. This is a magnificent place, and we want to 
thank all of you in the room: the Friends of Blackwater; the 
refuge managers; and all of the people that have come together 
to make this place an inspiration for visitors to have some 
sense of the beauty, the magnificence, the gentleness, the 
harshness of the natural system that this refuge represents, 
the ecosystem, the food web, the natural course of nature that 
this refuge is trying to represent, the way it used to be 
before John Smith came.
    Now, it is nice since John Smith came. We have improved the 
quality and the standard of life for human beings, extended 
their life, provided habitat for we as people, food and shelter 
and clothing. What the refuge attempts to do is to provide 
habitat, food, shelter, and some place to raise their young, 
for wildlife. And I think as human beings we have the skill and 
the intelligence to be able to do that, sort of a suburb for 
birds.
    But as in other suburbs, there are certain things that we 
don't need there or shouldn't be there. And in part of the 
testimony that we will hear this morning is some of the 
invasive species that we find at Blackwater, and do we have the 
skill, the will, the determination, and the resources to do 
something about these invasive species, notably our little 
friend over here, the nutria.
    But, at any rate, I want to thank all of you for coming. We 
look forward to your testimony, and we will take it back and 
try to make good use of it.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement by The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Thank you for coming today. This is a field hearing of the 
Subcommittee on Fisheries Conservation, Wildlife and Oceans, which I 
chair. The Subcommittee exercises the House Resources Committee's 
legislative jurisdiction over fisheries and wildlife, including 
refuges, marine affairs and oceanography. On the executive side, that 
translates into jurisdiction over most Fish and Wildlife Service 
programs, and the coastal and ocean programs of the National Oceanic 
and Atmospheric Administration.
    Recently the Subcommittee held a hearing on the operational and 
maintenance needs of the National Wildlife Refuge System. This hearing 
follows up and uses the Blackwater refuge as an example of specific 
operational and maintenance needs, and how well those needs are met by 
the Fish and Wildlife Service.
    Given the importance of refuges such a Blackwater in maintaining 
the health of the Atlantic Migratory Bird Flyway, I think it is the 
perfect example to review in more detail. The fact that I represent 
Dorchester County where the refuge is located made the decision even 
easier.
    Today's hearing is on the operation and maintenance of the 
Blackwater National Wildlife Refuge. The subcommittee is particularly 
interested in hearing about three items:
    1) the operational and maintenance needs of the refuge;
    2) the control of harmful invasive species at the refuge, 
particularly nutria; and
    3) the recreational opportunities provided by the refuge.
    We are fortunate to have a panel of witnesses today, who have 
extensive knowledge of this refuge and the management of conservation 
lands. I look forward to hearing their testimony concerning the 
operation and maintenance needs, invasive species control problems, and 
recreational uses at Blackwater and in a broader context of the 
management of conservation lands throughout the United States.
                                 ______
                                 
    Mr. Gilchrest. Our first witness this morning is Mr. Dan 
Ashe, Chief of the National Wildlife Refuge System, U.S. Fish 
and Wildlife Service. Welcome, Mr. Ashe.

STATEMENT OF DAN ASHE, CHIEF, NATIONAL WILDLIFE REFUGE SYSTEM, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ashe. Thank you, Mr. Gilchrest. That was a tough act to 
follow. I have to tell you, too, when I was walking out the 
door this morning at 0-dark-30, my wife said, ``Now where are 
you going today?'' And I said, ``I'm going over to 
Blackwater.'' And she said, ``You don't look like you're going 
to Blackwater.''
    [Laughter.]
    I think this is the first time I have ever worn a tie on a 
unit of the National Wildlife Refuge System.
    Mr. Gilchrest. Well, Dan, if you want to take it off, you 
shed your tie.
    [Laughter.]
    Mr. Ashe. It is really a pleasure to be with you here at 
Blackwater, and I really think this does provide a great 
setting for us to consider the future of America's National 
Wildlife Refuge System as it approaches its 100th anniversary 
in 2003. I agree with you, Blackwater is a magnificent refuge, 
and I think looking at Blackwater and our management here 
really does provide insights into the challenges that face its 
534 sister refuges.
    It also provides an outstanding example of how we can use 
innovative and science-based management to address even some of 
our most intractable problems like invasive species control. It 
is also a great place for us to reflect on the crucial role 
that comprehensive planning, volunteers, and community support 
groups like the Friends of Blackwater are playing in helping us 
to build a better future for the Refuge System as a whole.
    The President's budget for Fiscal Year 2002 reinforces our 
commitment to take care of our refuges by including a $10 
million increase for refuge maintenance. That increase will 
help us hire essential maintenance workers, deal with numerous 
deferred maintenance projects, and perform annual maintenance 
to further slow the growth of our deferred maintenance backlog. 
And as we talked about a couple of weeks ago in Washington, 
that backlog now stands at about $830 million.
    As you look around Blackwater, you can see the difference 
that our attention to maintenance has made. The facilities I 
think provide a safe environment for both our employees and our 
visitors. They are in significantly better condition than they 
were five years ago. We are making similarly impressive 
progress throughout the Refuge System in the maintenance of our 
facilities.
    But Blackwater, like many other refuges throughout the 
system, has a razor-thin margin of flexible operating funds 
that support our managers in dealing with complex management 
issues that they face, like invasive species control. I think 
the example here at Blackwater of nutria provides a great 
example. If we are not able to effectively address the threats 
posed by invasive species like nutria, then the situation 
worsens and the long-term cost of dealing with those issues 
increases substantially.
    That story repeats itself again and again on refuges 
throughout the country, and at over 50 percent of our refuges 
today, invasive species problems are preventing us from 
attaining our population and habitat goals at those refuges. At 
Loxahatchee Refuge in Florida, part of the Florida Everglades 
system, the exotic melaleuca and the Old World climbing fern 
are choking out the native plants. At Bosque del Apache in New 
Mexico, the salt cedar has all but eliminated the native 
cottonwoods there, and we are fighting to restore them 
literally acre-by-acre.
    In our wetlands we are fighting purple loosestrife. In our 
forests in the Southeast we are battling Chinese tallow. At our 
prairie refuges and waterfowl production areas we are 
struggling against invaders like leafy spurge and exotic 
thistles. In the lakes and rivers on our refuges we are 
swimming against a current of invasives, including zebra 
mussel, giant salvinia and water hyacinth.
    I was at North Delta Refuge at Stone Lakes in the Central 
Valley of California last week, and talking to those managers 
about the problems there with water hyacinth and the challenge 
they have in dealing with that. You add toads and starlings and 
sparrows and rats and moths and ants and even exotic bees, and 
you begin to see through the eyes of our refuge managers: the 
problems that they are facing are daunting.
    I think today invasive species probably represent the most 
serious challenge to the biological integrity of the Refuge 
System and one of our most pressing operational needs. A couple 
of weeks ago when you held your hearing on Refuge System 
operations and maintenance, we discussed our $1.1 billion in 
operational needs. That total includes about 300 projects 
totaling $120 million to address invasive species challenges, 
and with leadership from Members like yourself, Congress has 
been providing us with increased funding to address these 
issues. But we have much work to do.
    So I will suspend there, Mr. Chairman, and conclude by 
thanking you for holding this hearing today to help bring more 
attention and understanding within the Congress and the public 
at large to the needs of America's National Wildlife Refuge 
System. Our managers and employees like Glenn Carowan and his 
staff are the best in the world at what they do, and they do it 
with precious few resources. Their jobs are already 
challenging, and additional challenges like nutria and the 
hundreds of other invasive exotics are making it just about 
impossible.
    So thank you again for holding this hearing and helping us 
get to the place where we need to be.
    [The prepared statement of Mr. Ashe follows:]

  Statement of Dan Ashe, Chief, National Wildlife Refuge System, U.S. 
                       Department of the Interior

    Mr. Chairman, thank you for this opportunity to discuss the 
operational and maintenance needs of the National Wildlife Refuge 
System. Blackwater National Wildlife Refuge provides a great setting to 
consider the future of the Refuge System as it nears its 100th 
anniversary, in 2003. This magnificent refuge provides not only 
insights into the challenges facing the Refuge System, but also 
outstanding examples of how innovative, science-based management can 
address many of the threats to our nation's wildlife heritage. This 
refuge is the perfect place to consider the crucial role that 
volunteers and community support groups, like the Friends of 
Blackwater, must play if we are to succeed in accomplishing our 
wildlife conservation mission.
    Our first priority is taking care of what we have: the maintenance 
of the facilities and equipment we need to accomplish our mission. The 
Refuge System has $7 billion worth of buildings, utilities, dikes and 
levees, roads, fences, dams, vehicles and tools, that we must maintain 
to protect their value and keep them safe and in good working order.
    Refuge maintenance is addressed in three different but related 
programs: 1) Refuge Operations supports salaries for maintenance 
workers, laborers, and equipment operators; 2) Construction supports 
large and complex maintenance and capital improvement projects that 
normally cannot be accomplished in one year; and 3) the Refuge 
Maintenance program which supports annual maintenance, equipment repair 
and replacement, and deferred maintenance backlogged projects. In 
addition, since TEA-21, the Federal Lands Highways program helps 
address additional maintenance projects.
    Thanks to your support, the efforts of the Cooperative Alliance for 
Refuge Enhancement (CARE), our Five Year Deferred Maintenance and 
Equipment Replacement list, and our Maintenance Management System 
database, Have made progress addressing the highest priority needs of 
our facilities and equipment over the past few years. I'm pleased to 
say we have slowed the rate of growth in our maintenance backlog from 
30% just a few years ago to 7% today. We currently estimate a backlog 
of deferred maintenance projects, including 8,092 projects, totaling 
roughly $830 million, including $172 million for equipment replacement 
and repair.In Fiscal Year 2001, Congress appropriated a total of $75 
million for Refuge System maintenance ($56 million in Title I and $19 
million in Title VIII) and we are receiving $20 million annually in 
TEA-21 funds through the Federal Lands Highways program. Therefore, in 
total, we have $95 million available for refuge maintenance during the 
current fiscal year, and with this level of funding we will make 
additional progress toward our ultimate goal of reducing the 
maintenance backlog.
    The President's Budget request for Fiscal Year 2002 reinforces the 
need to take care of what we have by including a $10 million program 
increase for refuge maintenance. This increase will address the most 
critical annual and deferred maintenance projects. The Fiscal Year 2002 
request will also enable us to implement a three-step approach to 
reducing the deferred maintenance inventory by increasing funding to 
hire essential maintenance workers, performing additional annual 
preventative maintenance, and performing additional deferred 
maintenance, including a $1.8 million increase for condition 
assessments and improving the Maintenance Management System.
    As you look around Blackwater National Wildlife Refuge, you can see 
the difference the investment in maintenance has made. While we still 
have work to do, we have made progress in reducing the deferred 
maintenance backlog. The facilities provide a safe environment for both 
our employees and visitors. They are in better condition than they were 
five years ago. With a continued commitment to addressing these 
maintenance needs, we are making similar progress throughout the Refuge 
System.
    This is important, because we have pressing operational needs on 
refuges. Blackwater, like many other refuges throughout the System, has 
a razor thin margin of flexible, operational funds that managers need 
to address the dynamic resource management challenges they face. For 
example, meeting the challenges of combating invasive species requires 
a substantial commitment of operational resources. The example of 
nutria here at Blackwater and throughout the Chesapeake Bay provides a 
great example.
    Nutria are an exotic invasive rodent, native to South America, that 
have been introduced in 22 states nationwide, and affect over 1,000,000 
acres of the National Wildlife Refuge System. Among areas with high 
nutria populations is the lower Eastern Shore of Maryland, including 
Blackwater National Wildlife Refuge. Blackwater has lost over 7000 
acres of marsh since 1933, and the rate of marsh loss has accelerated 
in recent years to approximately 200 acres per year. Although there are 
many contributing factors (e.g., sea level rise, land subsidence), 
nutria are a catalyst of marsh loss due to their habit of foraging on 
the below-ground portions of marsh plants. This activity compromises 
the integrity of the marsh root mat, facilitating erosion and leading 
to permanent marsh loss. In light of the damage caused by nutria, the 
Service and 22 other Federal, state, and private partners joined forces 
in 1997 to identify appropriate methods for controlling nutria and 
restoring degraded marsh habitat. The Partnership prepared a 3-year 
pilot program proposal, which was subsequently approved by Congress, 
including authorization for the Secretary of the Interior to spend up 
to $2.9 million over three years beginning in Fiscal Year 2000 (Public 
Law 105-322).
    The Service received $500,000 in Fiscal Year 2000 to implement the 
three-year pilot study, Marsh Restoration: Nutria Control in Maryland 
in and around Blackwater Refuge. The funding came from both Refuge 
Operations ($300k) and the Partners for Fish and Wildlife Program 
($200k) funds. An additional $500,000 was provided in 2001 and the 2002 
budget also includes a request for $500,000.
    The 3-year pilot program was initiated in July 2000 with the hiring 
of a crew of four. Trapping is occurring on nine study sites in 
Maryland, three of which are on Blackwater Refuge. The initial focus is 
on live capture of animals as part of a study that will help formulate 
effective strategies for eradicating nutria. In January 2002, intensive 
harvest will be implemented on three study sites, while no harvest will 
occur on the remaining sites. This approach will allow monitoring of 
biological responses of nutria to intensive harvest, and will provide 
answers to many questions regarding effective nutria control.
    The damage nutria cause to the marshes of Chesapeake Bay can be 
helpful in understanding the operational needs of the Refuge System. If 
we do not address the threats posed by invasive species, the situation 
worsens, and the long-term cost of addressing the problem increases. 
This is a story that repeats itself over and over again throughout the 
Refuge System. At Loxahatchee Refuge in Florida's Everglades, the 
exotic melaleuca tree and the Old World climbing fern have infested 
thousands of acres of the refuge, out-competing the native plants. As 
these species become more widespread, the complexity and the cost of 
controlling them increases. From coast to coast, from the prairies to 
the mountains, each State and every ecosystem of our country has its 
own suite of invasive species threatening the health of the land.
    Other major terrestrial plant invaders on refuges include salt 
cedar, leafy spurge, whitetop, Brazilian pepper, purple loosestrife, 
Australian pine, Chinese tallow, and exotic thistles. Problem aquatic 
plants include giant salvinia and water hyacinth. Aquatic vertebrate 
invaders include tilapia, Asian carp, Asian swamp eels, and nutria; 
Terrestrial vertebrates include marine toads, European starling and 
English sparrow, and feral goats, pigs, and cats. Aquatic invertebrates 
include the zebra mussel. Terrestrial invertebrate invasives include 
the gypsy moth, imported fire ant, and Africanized honeybee.
    The problems are daunting, yet in most cases we know what needs to 
be done. We use a variety of strategies including outreach and 
education to minimize spread by humans, inventory and risk assessment, 
mechanical controls such as machinery or water level manipulation, 
pesticide applications, biological controls using natural predators, 
grazing, and prescribed fire.
    The need to address the threats that invasive species pose to the 
biological integrity of the Refuge System is just one example of the 
operational needs on refuges. Nationwide, refuge staff have identified, 
categorized and prioritized $1.1 billion in refuge operational 
projects. There are over 300 projects totaling $120 million to combat 
invasive species. Congress has provided increased resources to address 
invasive species each year since Fiscal Year 1998, under the improve 
habitat component of Refuge operations. Increases totaling $2.7 million 
have been provided since 1998,and each year Congress has funded high 
priority invasive species projects. Refuge operational needs and 
opportunities, if implemented, will forward our mission in managing 
refuge lands. These needs and opportunities are entered into our Refuge 
Operating Needs System (RONS) as they are identified by refuge staff.
    To better understand the most pressing operational needs on 
refuges, Congress directed us--in the Committee report accompanying the 
Fiscal Year 2000 Interior Appropriations bill--to develop a tiered 
approach to identify priority operating needs; aspects of refuge 
management--staff, equipment, and supplies--that are basic components 
of carrying out management of the Refuge System. We have responded to 
that Congressional direction and tiered the RONS database and now have 
a comprehensive view of the most pressing operational needs of the 
Refuge System. For instance, many of our refuges do not have a full-
time biologist, law enforcement officer, or the resources to support 
monitoring wildlife populations and habitat conditions. In some cases a 
full-time biologist or a law enforcement officer may not be necessary 
to fulfill the mission of a particular refuge; however, in many other 
cases, they are an essential part of the successful operation of a 
refuge. In addition to priority operating needs, there is a wealth of 
opportunity to do good things for wildlife within the Refuge System. 
These opportunities are included in the second tier of identified 
refuge operations projects.
    Additionally, we have unmet needs associated with establishment of 
new refuges that are categorized in the RONS database, in order to 
respond to GAO's report entitled, Agency Needs to Inform Congress of 
Future Costs Associated with Land Acquisitions. That report recommended 
that the Service estimate future operations and maintenance costs for 
each new refuge.
    Mr. Chairman, we appreciate your support in helping us meet our 
operating needs. Since 1997, funding for refuge operations has 
increased from $155 million to $225 million. Our people continue to do 
great work on the ground and to manage our refuges to provide 
tremendous benefits to wildlife and spectacular opportunities for 
Americans to get outdoors and enjoy their wildlife heritage. We are 
getting increasingly important work from a growing volunteer workforce. 
We are getting expanding support from our Refuge Friends groups and 
cooperating associations. We are growing our fee demonstration 
programs. In short, we are being innovative in meeting our needs, which 
I believe has always been a hallmark of refuge managers and the Refuge 
System.
    The Refuge System has made substantial progress in identifying and 
categorizing its priority operation and maintenance needs and 
opportunities, an important step in developing a long-term plan for 
meeting those needs. In the coming months, the Service will present its 
findings to the Department of the Interior and OMB, and work towards 
developing a long-term plan to address these needs and opportunities.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Ashe. We will continue to 
partner with Fish and Wildlife on the Refuge System, and we 
appreciate your attendance here this morning.
    Ms. Edith Thompson, Invasive Species Coordinator, Maryland 
Department of Natural Resources. Welcome.

     STATEMENT OF EDITH THOMPSON, EXOTIC/INVASIVE SPECIES 
     COORDINATOR, MARYLAND DEPARTMENT OF NATURAL RESOURCES

    Ms. Thompson. Thank you, Mr. Chairman.
    The Maryland Marsh Restoration and Nutria Control 
Partnership thanks you for asking us to testify before the 
Subcommittee about our efforts to address the growing 
population of nutria on Blackwater and the rest of the 
Chesapeake Bay and the damage it continues to inflict upon 
important marsh habitat. We appreciate your interest and 
support for the marsh restoration and nutria control pilot 
program that we are currently conducting, and our urgent need 
to apply what we learn from that pilot program to a broader 
eradication and marsh restoration program in the Delmarva 
Peninsula.
    Nutria is a large, as you can see, semi-aquatic rodent 
native to South America. It was imported to the United States 
early in the 20th century to provide a fur resource. Since its 
escape or release in Blackwater in 1943, it has contributed to 
the loss of over 7,000 acres of marsh in the refuge alone.
    Continued conversion of this marsh habitat to open water is 
removing significant habitat for commercially valuable 
waterfowl, shellfish, and finfish, and is decreasing the 
ability of the refuge to meet its goals, its conservation 
goals, the purpose of the refuge, to conserve native species 
and systems. Nutria is consequently impacting native species in 
a way that is addressed in the 1999 executive order on invasive 
species and their control on Federal lands.
    Control measures to date have been limited in their 
effectiveness because of the prolific nature of nutria and its 
ability to move into pockets of marsh where we have been 
successful in eradicating a population. The continued removal 
of this marsh from Blackwater and the surrounding area results 
in an environment that may no longer support marsh restoration 
because the substrate, the silt, the sediment, is gone.
    So, to protect the marsh, nutria eradication has to be 
conducted aggressively and effectively, with good information. 
And to protect the marsh, damaged marsh has to be restored 
while the nutria is being eradicated.
    To accomplish this, the Maryland Marsh Restoration and 
Nutria Control Partnership was formed through a Memorandum of 
Understanding in 1997. With 17 initial partners, including the 
Fish and Wildlife Service, the Maryland Department of Natural 
Resources, the Maryland Cooperative Fish and Wildlife Research 
Unit, and the University of Maryland Eastern Shore, the 
partnership comprises a management team which has done an 
amazing amount of work getting grants and doing research 
necessary in this pilot program.
    The partnership also includes actually a total of 24 
partners now, including the National Aquarium in Baltimore, the 
U.S. Department of Agriculture is a very important partner, 
Tudor Farms, the Salisbury Zoo, and many others. In 1998 the 
partnership drafted this proposal for the pilot program, and 
its purposes are to develop methods and strategies to reduce 
nutria populations in Blackwater and in the Chesapeake Bay to a 
level where the population cannot be sustained biologically; to 
develop marsh habitat restoration methods and strategies; and 
to promote public understanding of the importance of marsh 
habitat in the Chesapeake Bay and the threat that is posed to 
it by nutria.
    The pilot program was fully implemented in January 2001, 
and will run through 2003 in December. It is being conducted on 
Blackwater; on Fishing Bay Wildlife Management Area, which is a 
State area; and Tudor Farms, which is a private farm in this 
immediate area. Each area has one treatment site and one 
control site. Each of those is about 400 acres.
    Baseline data is being conducted in those study areas prior 
to conducting intensive nutria control, which we expect to 
begin in January of 2002 on those treatment sites. The control 
sites will be unharvested and will be used to measure the kind 
of reproductive response nutria has to control and eradication 
on the treatment sites. It is feasible, in other words, that 
control and eradication could make their response, reproductive 
response greater.
    So we have hired 12 trappers and a trapping supervisor, and 
they were hired in summer of 2000. Seven of them are local 
people. Two University of Maryland Eastern Shore graduate 
students are collecting this baseline data on population levels 
and the reproductive status of nutria. The data, as I said, are 
needed to formulate effective strategies for eradicating 
nutria.
    We have captured, marked and released 1,832 nutria so far. 
The recapture history of the animals will help us estimate more 
closely population size and annual survival. It is important to 
understand that in population control, annual survival has to 
be less than mortality in order to make the population go down. 
Radio collars have been deployed on 144 animals. The monitoring 
of these animals will help us understand peak activity times 
and locations, so we can concentrate our trapping efforts.
    The U.S. Army Corps of Engineers, Baltimore District, 
provided $30,000 in Fiscal Year 2001 to support preliminary 
studies of marsh restoration at Blackwater, and they are 
scoping a multiyear effort to restore about 150 acres here. The 
big challenges are funding challenges, as you know.
    The proposal that the partnership put together had, in 
Fiscal Year 2000, $1,350,000 that we needed. We received 
$500,000 in the congressional earmark as part of your 
legislation, $100,000 from the U.S. Department of Agriculture, 
and $50,000 from the National Fish and Wildlife Foundation. 
There were $150,000 in unanticipated costs, so the unmet needs 
were $850,000 for that year.
    In Fiscal Year 2001 we projected needing $757,000. We 
received $500,000 in a budget line item for the U.S. Fish and 
Wildlife Service, $100,000 from the U.S. Department of 
Agriculture, and another $50,000 from the National Fish and 
Wildlife Foundation. There were again $150,000 in unanticipated 
costs, making the total for the two years that we did not get 
or manage to get, $1,077,000.
    Projected costs for the third year of the pilot program 
were $774,000. The USDA grant will provide $100,000 again, 
making the total funding needed for the completion of this 
pilot project $1.9 million.
    The funding that we have received so far is only for nutria 
research and control. We have not received funding, other than 
the $30,000 that the Army Corps of Engineers has provided for 
Fiscal Year 2001, for marsh restoration. No funding has been 
available for the public outreach and education goal of this 
project.
    Beyond this pilot program, the current objective is to 
implement a large-scale nutria eradication effort on the 
Eastern Shore after the completion of this pilot program, using 
this data. We are really nervous about estimating what that is 
going to cost, but we are currently estimating at least twice 
the number of employees working, so we have 12, that would be 
24, and the salary costs we estimate at $1 million annually, 
with support costs of $300,000 annually.
    The Army Corps of Engineers estimates that it would cost 
approximately $4.5 million to restore 150 acres of marsh at 
Blackwater, but the methods haven't been worked out very well 
yet, and it is kind of a new science, so it is hard to estimate 
those costs.
    Finally, the last point I want to make is that nutria is 
found throughout the Delmarva Peninsula, and Maryland is doing 
its work to get the information to eradicate the animal here, 
but if similar effort is not made in Virginia and Delaware, and 
we are really successful in eradicating the animals here, the 
animals from the other States will just move right in here and 
we may as well have done nothing. So it is important that those 
two States also work with us.
    In conclusion, the partnership is committed to long-term 
goals of nutria eradication in Maryland, but this can only be 
accomplished, and I say this again, with the full complement of 
information generated by the pilot program. The partnership 
reflects a broad diversity of extremely skilled professionals, 
highly regarded scientific organizations and individuals, and 
can complete this pilot project if they have the resources.
    We urge Congress to appropriate sufficient funds, that is 
$1.9 million, to help us finish this project, and to continue 
to support the broader eradication efforts with funds and 
necessary legislation on Federal lands throughout the Delmarva 
Peninsula.
    Mr. Gilchrest. Thank you very much, Ms. Thompson.
    [The prepared statement of Ms. Thompson follows:]

    Statement of Edith R. Thompson, Exotic/Invasive Species Policy 
         Coordinator, Maryland Department of Natural Resources

    Mr. Chairman and Members of the Subcommittee:
    The Maryland Marsh Restoration/Nutria Control Partnership thanks 
you for asking us to testify before the Subcommittee on our efforts to 
address the growing population of Nutria within the Blackwater National 
Wildlife Refuge (BNWR) and the Chesapeake Bay and the destruction that 
it continues to inflict upon important marsh habitat. We greatly 
appreciate your interest in and support for both the Nutria/Wetland 
Restoration Pilot Program (Pilot Program) that we are currently 
conducting and our urgent need to apply what we learn from it to a 
broader eradication and wetland restoration effort on the Refuge and in 
surrounding wetlands.
    Nutria, a large, semi-aquatic rodent native to South America, was 
imported to the United States early in the 20th Century to provide a 
fur resource. Since its escape or release in the marshes of the BNWR in 
1943, Nutria has contributed to the loss of over 7,000 acres of marsh 
habitat on the Refuge alone. The current population of nutria on BNWR 
is estimated to be 35,000 to 50,000 animals. Continued conversion of 
marsh habitat to open water is removing significant habitat for 
commercially important waterfowl, shell and finfish species and 
decreasing the ability of the refuge to support a diversity of native 
plants and animals. Consequently, nutria negatively impacts the 
conservation purposes of the BNWR and creates the kind of negative 
impact on native species and habitats addressed in the 1999 Executive 
Order regarding Invasive Species and their control on federal lands.
    Control measures to date have had limited effect because the highly 
prolific nutria immediately fills in pockets of marsh where a 
population has been eradicated. The continued removal of marsh from 
BNWR and from surrounding areas could result in a change in the local 
environment, which could in turn prevent the restoration of the marsh. 
To protect the marsh, nutria eradication must be conducted aggressively 
and efficiently in order to prevent resettlement in treated marshes. 
Damaged marsh must be restored immediately in order to maintain an 
environment that can support marsh plants while nutria are being 
removed.
    To accomplish this, the Maryland Marsh Restoration/Nutria Control 
Partnership (the Partnership) was formed through a Memorandum of 
Understanding in 1997 with 17 initial partners including the U.S. Fish 
and Wildlife Service, the Maryland Department of Natural Resources, the 
Maryland Cooperative Fish and Wildlife Research Unit, the University of 
Maryland Eastern Shore, which compose a core Management Team, as well 
as the U.S. Department of Agriculture, the National Aquarium in 
Baltimore, Tudor Farms and the Salisbury Zoo among others. The 
Partnership now includes 24 members. In 1998, the Partnership drafted a 
proposal that reflected an agreement to initiate and support a Pilot 
Program to:
    1) Develop effective methods and strategies to reduce nutria 
populations in the Chesapeake Bay wetlands to the point where they are 
unable to maintain a sustainable population,
    2) Develop effective marsh habitat restoration methods and 
strategies, and
    3) Promote public understanding of the importance of preserving 
Maryland's wetlands and the threat that nutria poses to those habitats.
    The Pilot Program was fully implemented in January of 2001 and will 
run through 2003. It is being conducted on BNWR, Fishing Bay Wildlife 
Management Area (STATE), and Tudor Farms (Private), in Dorchester 
County. Each area includes one treatment site and one control site, 
each about 400 acres.
NUTRIA ERADICATION
    Baseline data is being collected in the study areas prior to 
conducting intensive nutria eradication. Collection of baseline data 
will continue until January of 2002, after which intensive population 
control will occur on half of the sample sites. On the treatment sites, 
various trapping methods are being tested. Twelve trappers and a 
trapping supervisor were hired in late summer of 2000. Seven of 
trappers are residents of local communities around BNWR. Two University 
of Maryland Eastern Shore graduate students are collecting baseline 
data on population levels and reproductive status of nutria. These data 
are needed to formulate effective strategies for eradicating nutria.
    To date, 1,832 nutria have been captured, marked, and released. 
Recapture histories of these animals during future trapping events will 
be used to generate estimates of population size and survival.
    Radio collars have been deployed on 144 animals. Regular monitoring 
of these animals will reveal seasonal movement patterns, allowing 
control efforts to target peak activity times and locations, which will 
increase effectiveness of broader eradication efforts.
    Preliminary analysis of reproductive status has been conducted for 
several animals, as well, to help measure the mechanics of nutria's 
reproductive capacity. They have shown a high degree of synchrony among 
females, which is believed to result from severe winter weather. No 
gross indications of disease or parasites have been identified in these 
animals. Marsh habitat restoration is also being examined.
    In January 2002, intensive population control will be initiated on 
half the study sites. The remaining sites will be unharvested controls 
for comparison of population and reproductive responses to intensive 
harvest.
WETLAND RESTORATION
    The U.S. Army Corps of Engineers, Baltimore District, has provided 
$30,000 in Fiscal Year 2001 to support preliminary studies of marsh 
restoration methods at BNWR. The USFWS will disburse funds to the 
University of Maryland College Park to support a graduate research 
assistant during summer 2001. The Corps is currently scoping a multi-
year effort to restore about 150 acres of marsh at BNWR. The Fiscal 
Year 2001 research project will refine methods to be used in this 
large-scale effort.
CHALLENGES FACING SUCCESSFUL COMPLETION OF PILOT PROJECT
    The successful completion of the pilot project is essential to 
ensuring that future nutria eradication and wetland restoration efforts 
at BNWR are effective. The primary challenge to the successful 
completion of the pilot project has been the inability of the 
Partnership to obtain the funds necessary and projected in the original 
Partnership proposal.
    In that proposal, projected costs for the first year (Fiscal Year 
2000) were $1,350,000.00 and the program received $500,000 in a 
Congressional earmark to the US Fish and Wildlife Service, $100,000 
from the U.S. Department of Agriculture Capacity Building Grant, and 
$50,000 from the National Fish and Wildlife Foundation. There were 
$150,000 in unanticipated costs above what was anticipated in the Pilot 
proposal, so the unmet budget needs for the first year were $850,000.
    Projected costs for the second year (Fiscal Year 2001) were 
$757,000 and the program received $500,000 in as a line item in the 
U.S. Fish and Wildlife Service budget, $100,000 from the U.S. 
Department of Agriculture Capacity Building Grant, and another $50,000 
from the National Fish and Wildlife Foundation. There were $150,000 in 
unanticipated costs above what was anticipated in the Pilot proposal, 
making the total unmet funding needs for the two years at $1,077,000.
    Projected costs for the third year of the Pilot Program (Fiscal 
Year 2002) are $770,000, making the total funding needs for the 
completion of the Program $1,880,000. The Maryland Department of 
Natural Resources has contributed approximately $260,000 in in-kind, 
nonfederal matches for the grants described above.
    Funding for the Pilot Program through Congressional appropriations 
and NFWF grants have been available only for nutria research and 
control activities. Funding for wetland restoration efforts has not 
been available, although the Army Corps of Engineers has provided 
$30,000 for Fiscal Year 2001 to support preliminary investigation into 
marsh restoration at BNWR. No funding has been available for public 
outreach and education efforts directly related to the Pilot Program.
    Beyond the Pilot Program, the current objective is to implement a 
large-scale nutria eradication effort on the Eastern Shore after 
completion of the Pilot Program in December of 2003. It is anticipated 
that a workforce of at least twice that employed in the Pilot Project 
would be required for such an effort. Salary costs for such a workforce 
would be approximately $1 million annually, with support costs 
estimated at $300,000 annually. These figures approximate the annual 
budget estimates for the Pilot Program Proposal, but differ in that the 
workforce is doubled and there is no provision for wetland restoration.
    In its Section 206 Preliminary Restoration Plan, the U.S. Army 
Corps of Engineers estimated restoration costs at $4.5 million for 150 
acres of restored wetland at BNWR. These costs cannot be easily 
extrapolated throughout the range of nutria in Maryland due to 
variation in mobilization costs, a significant component of total 
restoration costs.
    Finally, nutria are found throughout the Delmarva Peninsula. 
Control of nutria in the BNWR and Maryland's marshes will not be 
successful in the long term if populations of these animals can move 
from other states into Maryland habitat that is made available through 
this nutria eradication program.
CONCLUSION
    The Partnership is committed to the long-term goal of nutria 
eradication in Maryland, however, this can only be accomplished if the 
full complement of information generated by the Pilot Program is 
achieved. The Partnership reflects a broad diversity of credible and 
professional scientific organizations with individuals willing and able 
to complete the goals of the Pilot Program, which is necessary to 
ensure effective eradication of nutria in the state and in a 
significant portion of the Chesapeake Bay.
    The Partnership urges Congress to appropriate sufficient funds to 
address the unmet needs of the Pilot Program, a total of $1.9 million 
and to continue to support broader eradication efforts with funds and 
necessary legislation on federal lands.
                                 ______
                                 
    Mr. Tillier, Friends of Blackwater.

   STATEMENT OF RON TILLIER, PRESIDENT, FRIENDS OF BLACKWATER

    Mr. Tillier. First of all, thank you very much for asking 
us to speak this morning. The Friends basically is the backbone 
of the volunteer effort here. Last year we donated 
approximately 11,000 volunteer hours or the equivalent of six 
and a half full-time employees, and those ranged in activities 
from manning the visitor center, operating the bookstore, 
administrative and clerical assistance, biological surveys and 
programs, conducting educational group orientations, and 
conducting guided refuge tours.
    The visitor center is manned entirely by volunteers, since 
the outdoor recreation planner is the only staff person here on 
the premises. While the refuge presently has a temporary person 
at the center, we don't know how long that position is going to 
be funded. Over the past 10 years, the outdoor recreation 
planner has trained and has had 44 part-time assistants. When 
volunteers aren't available here, the refuge often finds it 
necessary to close the visitor center.
    We do a lot of things here at the refuge. We handle, for 
example, all of the administrative detail of the annual hunt 
program at the refuge. At the present time, we are in process 
of upgrading exhibits at the visitor center. Some of the 
present exhibits here go back to the 1960's. This is being 
funded by a $15,000 grant, with funds being matched by the 
Friends, and the exhibits will be in place by June of this 
year.
    We have funded and developed an educational manual which is 
being printed this month and will be distributed to schools in 
Dorchester and surrounding counties, to encourage teachers to 
integrate the refuge as an outdoor classroom in their natural 
science programs. Through coordination with Africam, we have 
been able to place video cameras on an eagle's nest and on an 
osprey platform. While our eagle's nest venture hasn't been 
successful because the nest remains unoccupied, the osprey cam 
is proving to be a very valuable educational tool here at the 
visitors center and also on-line at our web site.
    Friends is presently involved in a major marsh restoration 
project in conjunction with the National Aquarium. This program 
will involve planting of marsh grasses on approximately 10 
acres of land on Barren Island. Our commitment to this project 
involves not only the planting, which will require recruitment 
of 30 to 60 volunteers per day for a period of up to six days, 
but then will require a monitoring activity for a period of at 
least 10 years.
    We support community members and groups where it also 
benefits the refuge. For example, we recently pledged the 
support of $2,000 to a 13-year-old Boy Scout who put together a 
project involving the planting of over 1,000 trees here on the 
refuge. We work with other community organizations. As a 
result, construction will begin this summer on a butterfly 
garden to be located directly behind the visitor center. We are 
working with the Department of Tourism to install and operate a 
low-power AM radio station to assist in popularizing the refuge 
to people traveling on Route 50.
    We anticipate a grant of $15,000 which would be providing 
the materials for construction of a handicapped-accessible 
educational photo blind and observation site here in the marsh. 
We are also anticipating receipt of another grant this summer 
which will enable us to develop a canoe/kayak trail through the 
marsh. The group is currently involved with refuge staff in 
development of plans for a walking trail.
    We have done some background work on the possibility of 
expanding and updating the visitor center. We have acquired 
rough drawings, and the group is presently investigating what 
will be necessary in order to put together a feasible capital 
campaign.
    We conduct, in conjunction with the refuge outdoor 
recreation planner, a minimum of three major open houses. We 
will do four this year. Our most recent effort, the eagle 
festival was held on March 10th. We hosted over 1,350 visitors 
on that day here. In order to accommodate the crowd, we had to 
split activities between the visitor center and a rented tent, 
which evidences the inadequacy of this 40-year-old facility.
    We recently hosted a Business After Hours program, where we 
presented 22 plaques to organizations in the community which 
made significant contributions to the refuge. We have an active 
Speakers' Bureau. We financed the development and production of 
a video which explains activities here on the refuge. The group 
publishes a quarterly newsletter, which is called Tidelines, 
which we mail to members, interested groups and community 
leaders from Guam to Alaska and Hawaii. We printed 1,200 
newsletters last month.
    We have our own web site, which was professionally prepared 
by a member of the Friends and is maintained by her. FOB 
members attend numerous educational and awareness meetings, 
conferences, and seminars which are deemed to be potentially 
helpful to the refuge. We attend community events to heighten 
awareness of the refuge, for example, the Waterfowl Festival, 
the National Outdoor Show, Earth Day, those kinds of programs.
    The group operates the Eagle's Nest bookstore here, which 
has been recognized by many as the best nature book source in 
the county for both adults and children. We solicit donations 
from individuals and organizations for funds to assist in 
obtaining seed to support the crop planting program for the 
feeding of migratory waterfowl, and this is becoming a more 
important program each year because of the problems with 
resident Canada geese and the availability of refuge funds in 
general. We are also involved in an active outreach program, 
working with the Fish and Wildlife Service in promoting the 
concept of Friends groups to other refuges in the system.
    So, in summary, the Friends of Blackwater are totally 
dedicated to supporting the refuge in all of its missions. But 
despite a substantial cadre of very willing volunteers, 
refuges, if they are going to increase their interface with the 
public in an educational and recreational sense, will have to 
be better funded in terms of staff and financial resources in 
order to maintain the lands and the missions that have been 
entrusted to them.
    Thank you very much for the opportunity to speak.
    [The prepared statement of Mr. Tillier follows:]

  Statement of Ron Tillier, President, Friends of Blackwater National 
                         Wildlife Refuge, Inc.

    Friends groups can be a tremendous assist and can offer valuable 
support to National Wildlife Refuges. At Blackwater, FOB (Friends of 
Blackwater) is the backbone of the volunteer effort. Volunteers come 
from as far as Philadelphia, Pennsylvania, and the Western Shore. Last 
year, volunteers donated approximately 11,000 volunteer hours or the 
equivalent of six and a half fun time employees ranging in activities 
from manning the visitor center, operating the bookstore; 
administrative and clerical assistance; biological surveys and programs 
conducting educational group orientations and conducting guided Refuge 
tours. Landscaping around the visitor center and its entrance sign is 
done entirely by one volunteer. The visitor center is manned entirely 
by volunteers since the Outdoor Recreation Planner is the only staff 
person on the premises. While the Refuge presently has a temporary 
person at the Center in addition to the permanent staff person, it is 
not known how long this position will be funded. Over the past ten 
years, the Outdoor Recreation Planner has trained and had 44 part-time 
assistants. Volunteers working at the center provide information, 
assist in interpretive work run the bookstore and act as hosts to the 
Refuge. It is highly doubtful that the Refuge could provide the 
amenities of the visitor center without those volunteers. In fact, when 
volunteers are not available, the Refuge finds it necessary to close 
the Visitor Center.
    FOB provides support in virtually all aspects of refuge operations 
at BNWR. As a 501(c)(3) organization (nonprofit), all proceeds from the 
operation of the refuge bookstore and all other revenues are turned 
back to the refuge in some form
    A sampling of activities (not in order of importance or time 
involved) is provided here for your review:
    1. Members of the Friends take part in various biological surveys, 
notably our annual eagle count which takes place every January. Others 
are actively involved with, or substituting for, Refuge personnel in 
the cleaning of nesting boxes in support of the Refuge wood duck 
program for example, (there are numerous nesting boxes for various 
species on the Refuge) or assisting Refuge biologists in various 
monitoring programs.
    2. FOB handles all of the administrative detail of the annual hunt 
program at the Refuge. This is done by paying a qualified individual 
hired through an employment services bureau. The work entails 
developing the scope of the hunt with Refuge personnel as well as 
regulations, mailings, maps and distribution of information. A member 
of the group works very closely with this individual in development and 
dissemination of written materials.
    3. At the present time, FOB is in process of upgrading exhibits at 
the visitor center. Some of the present exhibits date back to the 
1960's. This is being done by volunteers in conjunction with Joan 
Carroll Designs (a professional exhibits firm) and is being funded by a 
$15,000 grant received from the Chesapeake Bay Gateways and Water 
Trails Network (through the National Parks Service) with funds being 
matched by FOB. The total expenditure will exceed $30,000. The wits 
will be in place by June of this year and will involve a complete 
renovation of the entrance interior and the east side of the visitor 
center. The upgrade will focus attention on the various topographical 
aspects of the refuge, i.e., marsh, woodlands and water. It will also 
feature a live beehive with extensive educational material.
    4. FOB has funded and developed an Educational Manual which is 
being printed this month and will be distributed to schools in 
Dorchester and surrounding counties to encourage teachers to integrate 
the Refuge as an outdoor classroom into their natural science programs. 
The manual was developed with direct input firm teachers to ensure 
utilization and compatibility with existing programs. In order to get 
teachers to attend the developmental workshops, FOB paid the schools 
for substitute teachers. This first manual is for use in elementary 
schools; however there is a Junior High School manual and Senior High 
School version currently under development. The group obtained funds to 
cover the printing of this manual from the local Wal-Mart.
    5. FOB, through coordination with Africam and National Geographic, 
has been able to place video cameras on an eagle's nest and on an 
osprey platform. While our eagle's nest venture has not been successful 
because the nest remains unoccupied, the Osprey Cam is proving to be a 
valuable educational tool here at the visitor center and online at our 
website (www.friendsofblackwater.org) and at the Refuge website, the 
Africam website and the website at a local Internet Service Provider. 
This project entailed getting the entire local community involved 
including Choptank Electric who donated electrical access County 
Commissioners who authorized use of a communications tower, Hurst Creek 
Computers who provided the technical equipment and expertise; and 
Maryland Towers who provided labor and equipment as well as the 
expertise of Refuge staff and a member of the Friends.
    6. The Friends is presently involved in a major marsh restoration 
project in conjunction with the National Aquarium and the Friends of 
Eastern Neck Wildlife Refuge. This program will involve planting of 
marsh grasses on approximately ten acres of land on Barren Island. Our 
commitment to this project involves not only the planting, which will 
require recruitment of 30 to 60 volunteers per day for a period of six 
days, but then will require monitoring activity for a period of at 
least ten years. This project is especially important to the Refuge and 
to the Eastern Shore since it involves an attempt to control erosion on 
our fast disappearing islands in the Bay- This project is so important 
that it is the entire focus of a single member of the Refuge Staff. 
Training for monitoring the results of this program will be conducted 
in May in conjunction with Eastern Neck Wildlife Refuge and planting on 
Barren Island is planned to take place in early June of this year.
    7. FOB supports community members and groups where it also benefits 
the Refuge. For example, it recently pledged support of up to $2,000 to 
a thirteen year old boy scout named Joshua Stone who singlehandedly put 
together a project involving the planting of over 1,000 trees on the 
Refuge. The total value of the project exceeded $8,000 but through 
Joshua's persistence and ingenuity the FOB contribution will be a 
little under $1,500. The project actually resulted in the planting of 
close to 2,000 trees.
    8. FOB works with other community organizations. As a result, 
construction will begin this summer on a butterfly garden to be located 
directly behind the Visitor Center. This garden, while totally 
constructed by the Cambridge Garden Club at substantial expense, is 
indicative of the type of relationship it has with other groups in the 
area. The garden will be a major educational and recreational addition 
to the Refuge and will certainly enhance its ``outdoor classroom'' 
functionality. An exhibit within the visitor center which is being 
funded by FOB will focus on butterflies and the garden.
    9. FOB is working with the Department of Tourism to install and 
operate a low power am radio station to assist in. popularizing the 
Refuge to people traveling route 50. While funding for this project is 
provided through the Regional Office of the USFWS, the coordination of 
this project is being handled through FOB and a volunteer and FOB 
member. This project will require close coordination with the County, 
the Department of Tourism., the Highway Department, FCC and Refuge 
Staff.
    10. FOB is anticipating a grant of $15,000 to provide materials for 
construction of a handicapped accessible educational/photoblind and 
observation site in the marsh. We are hopeful the funds will pay for 
the decking material with the construction being done by volunteers. 
This project will greatly improve accessibility to the marsh in terms 
of public use for educational and recreational purposes. The group is 
expecting to receive a quote for materials very soon and should be 
prepared to begin this project in June of this year.
    11. The Friends is also anticipating receipt of a substantial grant 
this summer which will enable it to develop a canoe/kayak trail through 
the marsh. This project will include partnerships with private 
individuals, that is, owners of a campground. and a bed and breakfast. 
This will be a major effort involving development of the approximately 
60 miles of waterway, mapping, signage and administrative details. This 
project is designed to greatly increase public use/ accessibility and 
will be both educational and recreational.
    12. The group is currently involved with the Refuge staff in the 
development of plans for a 5-7 mile walking trail. Once again, this is 
the type of project that will provide the basis for increased public 
use and appeal.
    13. FOB has done some background work on the possibility of 
expanding/ updating the visitor center. It has acquired rough drawings 
and the group is presently investigating what will be necessary in 
order to put together a feasible capital campaign. As envisioned, the 
building would take on a second floor, with an enclosed glass viewing 
area, and newly added wings to provide an expanded auditorium and 
potentially house a local folk museum as well.
    14. The group has been supportive of the Refuge's Nutria Control 
concerns and has hosted a public meeting on this subject to heighten 
community, awareness of the damage being done by this invasive species. 
The group also talks about this subject whenever the opportunity arises 
whether it be through our speaker's bureau, the press or its presence 
at numerous community affairs and events.
    15. FOB conducts, in conjunction with the Refuge Outdoor Recreation 
Planner, a . minimum of three major open houses (four in 2001). These 
open houses focus largely on educational activities and feature special 
programs for children that are recreational as well. Our most recent 
effort, `Eagle Festival'' was held on March 10, 2001. We hosted over 
1,350 visitors on that day. In order to accommodate the crowd, we had 
to split activities between the visitor center and a rented tent 
evidencing the inadequacy of our 40 year old facility. Adults and 
children took part in a myriad of programs including: Bird walk; ``What 
Blackwater Does for the Eagle--; Eagle Eye View Children's Activity; 
Live Peregrine Falcon Program.; Educational Puppet Show; Eagles in 
Maryland presentation; Eagle Prowl; ``How To'' Photograph Wildlife; 
Children's Eagle Puppet Construction Project; Live Golden Eagle and 
Bald Eagle Program; Eagle Nest Production (video) at Iroquois NWR; 
Eagles as part of Native American Culture; Children's Arts and Crafts: 
What You Can Do To Help Injured Birds; How to Choose Binoculars and 
Scopes; Name that Tune Bird Calls; Live Owl Program; Children's Bird 
Feeder Construction Activity. Our annual ``Spring Fling and Birding 
Festival'' features our now well-known Children's Turtle Race!
    16. The group interfaces and recognizes organizations and 
individuals who contribute to the Refuge; for example, it recently 
hosted a ``Business After Hours'' program in conjunction with the 
Dorchester Chamber of Commerce. FOB presented 22 plaques to 
organizations making significant contributions to the Refuge directly 
or to the Friends which, of course, also benefits the Refuge directly.
    17. The group is very active in seeking out grant opportunities to 
fund its projects and has sent members to grant writing courses. It has 
also paid for other educational courses, for example, Newsletter 
Preparation.
    18. FOB has an active Speaker's Bureau. The group will provide 
speakers to various options and has spoken to senior citizen's groups, 
fraternal organizations and various church and business groups. 
Typically, these presentations involve a combination of speaking and 
short video on the Refuge and the importance of the Refuge to the 
community,- however, the subject can be altered to fit the need of the 
requesting organization.
    19. The group financed the development and production of a video 
which explains activities on the Refuge, focusing on its main missions 
of providing for migratory birds and waterfowl, endangered species, 
public interface and the land and water management programs required to 
support those missions.
    20. The group publishes a quarterly newsletter ``Tidelines'' which 
it mails to members, interested groups, ;and community leaders from 
Guam to Alaska and Hawaii. The publication provides news of what's 
happening on the Refuge and attempts to provide recognition to staff 
members and volunteers for their efforts. We printed 1200 newsletters 
last month and mailed 987.
    21. FOB has its own web site www.friendsofblackwater.org, which was 
professionally prepared by a member of the Friends and maintained by 
her. It is an outstanding site with access to the Refuge Osprey Cam and 
links to many other educational sites. A visit to the site is the 
beginning of a memorable educational voyage.
    22. FOB members attend numerous educational and awareness meetings, 
conferences and seminars which are deemed to be potentially helpful. to 
the Refuge and/or to the group itself. An example would be last year's 
Virginia Governor's Conference on Greenways and Blueways.
    23. Members are also involved with publicity for the Refuge and are 
involved in writing press releases and appearing on radio programs etc. 
in support of Refuge activities.
    24. Members attend meetings of various types which might affect the 
Refuge, e.g. recently we were represented at the Dorchester County 
Commissioner's meeting for a hearing on a proposed moratorium of 
antenna towers in the County. This moratorium would have adversely 
affected our ability to provide the educational Osprey Cam to the 
public; hence, we act as advocates to the benefit of the Refuge, the 
community, and its tourism opportunity.
    25. The group attempts to be constantly attuned to legislation that 
has the potential to affect the Refuge and takes positions in favor or 
in opposition of such proposed legislation. In this fashion, it tries 
to stay in touch with its legislators and on issues affecting itself, 
the Refuge and the Community.
    26. FOB attends community events to heighten awareness of the 
Refuge, the Friends group and associated activities. Examples of events 
which. we typically attend and take part in are: Waterfowl Festival; 
National Outdoor Show; Shad Festival; Salisbury Zoo Earth Day; 
Picketing Creek International Migratory Bird Day; Cambridge Senior 
Celebration; 4-H Fair, Seafood Feast-i-Val; Dorchester Outdoor Show; 
National Hunting and Fishing Day Show; Horsehead Wetlands Day; and 
Picketing Creek Hoe-Down. Refuge activities are always featured and a 
booth is manned to provide information.
    27. The Group operates the ``Eagle's Nest'' Bookstore which has 
been recognized by many as the best nature book source in the county, 
for both adults and children. The bookstore holds its own open house 
annually where it always has local authors available for book signings 
and discussions. One hundred percent of all bookstore profits are 
turned back to the Refuge to assist it in its operational needs. 
Typical items purchased with funds are: binoculars for use by children 
and groups during guided tours) computers, copying machines, tables, 
cameras, spotting scopes and other similar equipment. The bookstore has 
been selected by the USFWS as its national distributor of ``Wild 
Things'' poster tee shirts for the past four years. Our volunteer 
bookstore manager is often called upon by groups just staffing 
bookstores for advice and counsel.
    28. Hyatt is opening a major resort in the area in December. The 
group has formed a committee to plan how to take advantage of the 
anticipated increase in visitor, to Cambridge.
    29. The group assists the Refuge by soliciting donations from 
individuals and organizations for funds to assist in obtaining seed and 
associated supplies to support its crop planting program for the 
feeding of migratory waterfowl This is becoming a more important 
program each year because of problems with resident Canada Geese and 
availability of Refuge Funds in general.
    30. FOB is also involved in an active outreach program working with 
the USFWS is promoting the concept of expansion of Friends Groups to 
other Refuges in the System. Representatives from FOB have traveled all 
over the U.S. to assist Refuges and fledgling Friends groups in their 
early developmental stages, often accompanied by the Project Leader at 
Blackwater.
    31. Most recently, a representative of the Friends attended a four 
day Invasive Plants Conference in Washington DC. Attendance at this 
conference should prove beneficial to the Refuge as awareness of those 
speck issues and their potential impact increase. The Friends will be 
in a better position to address the public with solid scientific 
information.
    32. When it became apparent that storage space had to be expanded 
to accommodate the growing inventory of our bookstore, the Friends 
brought together a small group of volunteers who constructed the shed 
adjacent to the visitor center. There simply is inadequate space in the 
present building; hence volunteers and the Friends provided materials 
and labor to solve the problem.
    In summary, the Friends of Blackwater are totally dedicated to 
supporting the Refuge in all of its missions. Additionally, in so 
doing, it has the opportunity to be of service to the community as 
well. To the extent the group can increase awareness of the Refuge and 
its programs to the general public, it will have an effect on local 
eco-tourism which .is certainly mutually beneficial.
    The most important sources of FOB revenue at the moment are the 
bookstore and donations,. Last fiscal year, gross sales in the 
bookstore approximated $70,000; however, we do not believe we can 
recognize any significant increases above this level due, primarily, to 
physical constraints. Additionally, all of that $70,000 does not wend 
its way to the Refuge because, despite the fact it is operated by a 
volunteer, there are numerous expenses involved. In essence, this means 
that we have to find new ways to increase revenue and we are exploring 
other means.
    For two years, we bad an outstanding source of revenue which 
required virtually no effort and represented a 100% profit. As noted 
above, the Refuge conducts an annual hunt program. In the past, we have 
had donations of a gun which we used as an item to ``raffle''. The cost 
of the tickers were borne by a local bank and a volunteer obtained a 
display case; hence, we had no associated costs. We began selling 
tickets in the Spring and awarded the gun in December. I believe that 
this one source of revenue has the potential to exceed the efficacy of 
any other revenue source. We have not held a raffle this year because 
we were advised by the USFVPS that a raffle is considered gambling and 
that gambling is not permitted an government property. The market for 
these donations (and we believe that the purchase of a raffle ticket is 
truly a ``donation'' and not gambling is the strictest sense of the 
word) is on Refuge property because that's where the hunters come to 
hunt and to obtain permits. We were informed that if the Secretary of 
the Interior would write a letter of exception, that groups such as 
ours would be able to use a ``raffle'' as a fund raising activity: The 
group addressed a letter to Secretary Babbitt two years ago asking that 
an exception be made which would allow nonprofit groups to use rakes as 
fund raisers. Unfortunately that letter was shuffled down to the FWS 
where a response was prepared that clearly did not recognize the 
content of our original letter. It was most disappointing since we know 
that groups such as ours (and their associated refuges) would greatly 
benefit. It is the hope of our organization that someone in the new 
administration will taste the time to revisit this policy and allow us 
to maximize our hind raising efforts for the benefit of Refuges 
nationwide.
    Despite a substantial cadre of willing volunteers, Refuges, if they 
are to increase their interface with the public in an educational and 
recreational sense, will have to be better funded in terms of staff and 
financial resources to maintain the lands and missions entrusted to 
them.
    Thank you for the opportunity to present this information.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Tillier. Perfect timing.
    Mr. Johnson?

  STATEMENT OF W. LADD JOHNSON, CHAIRMAN, MARYLAND WATERFOWL 
                           COMMISSION

    Mr. Johnson. Thank you, sir. Blackwater has a special 
affinity to me. My uncle, Peter VanHussian, was the first 
manager here at Blackwater when it was founded, and since then 
I don't think there has been a manager here that I haven't had 
as a friend.
    We are excited about the possibility of expanding 
Blackwater for recreational use. Presently about the only 
recreational, consumptive recreational use is deer hunting, and 
it is my understanding that almost everyone who applied last 
year got a spot to go deer hunting. What is exciting to us is 
that many of those people were not residents, which meant hard 
currency to our local economy here because they stayed in 
hotels, ate in restaurants, and bought nonresident licenses 
which help support many of our governmental programs, 
particularly in waterfowl.
    We are excited about expanding Blackwater into turkey 
hunting. I don't know if many of you saw it last night, but 
there was a trivia question on Outdoor Life on television last 
night, that there are now more turkey hunters than there are 
waterfowl hunters, which is rather profound when you look at 
it. Although if you look at the National Wild Turkey 
Federation, it is growing much more rapidly than any other 
nonprofit organization in the country in the sporting field.
    We see the future of waterfowl hunting on Blackwater. With 
the expanse of Blackwater that we have now, certainly the 
Nanticoke watershed, if acquisition could be made over there on 
that avenue, it is a satellite area that waterfowl hunting, 
particularly goose hunting and duck hunting, could be expanded 
over there, with limited rail hunting. As far as hunting here 
on the Blackwater proper, where we are seated now, we do not 
conceive any hunting opportunities here. The agricultural lands 
are too important to sustaining the populations that frequent 
Blackwater.
    On the nonconsumptive use, we are excited about that. We 
think that can be expanded, as the Friends of Blackwater said, 
certainly canoe or kayak trails through the marshes. There are 
plans now for a rather extensive butterfly garden just outside 
the picture window here at Blackwater, being funded by the 
Dorchester Garden Club. It will expand that use. Certainly 
photography and everything else can be expanded.
    What I see also is a desperate need for an educational 
center; this close to the Nation's Capital, and the population 
that is here within two hours of Blackwater, that Blackwater 
could serve as a model for a major population up and down the 
Atlantic Flyway to come in and use it both as hunter education 
and nonconsumptive education. It could certainly be used by 
many organizations out of Washington that are related to 
wildlife.
    What does concern us is a present attitude or procedure 
being introduced by the Fish and Wildlife Service which I have 
labeled as ``passive wildlife management.'' They have a more 
fancier name than I do. But what it means is, the refuges will 
not be managed as they have in the past. They will be converted 
back to where they were, as you mentioned, when John Smith 
arrived, and I call that passive management or letting nature 
take its course. With wildlife today, the three most important 
things are food, shelter and water, and if it goes back to the 
passive use, of letting nature take its course and the refuge 
grows up in native trees and native fauna, then certainly the 
food source will not be there.
    The private sector and many of the States have taken on 
another attitude, which we are very active in, in that my 
company designs wildlife habitat for the private sector. It is 
what we call ``intensive wildlife management.'' Intensive 
wildlife management is planting grain crops, managing it for 
maximum production of food sources. And if the attitude of the 
Fish and Wildlife Service is to go to the passive, then 
certainly what I mentioned to you a while ago on the 
nonconsumptive use and the consumptive use of the refuges will 
certainly be deteriorating.
    The populations of waterfowl, because of our economy and 
our new agricultural practices, combines are leaving less grain 
in the field for wildlife. Those fields that would normally 
have grain residues now are being plowed in the fall and 
planted in either barley or wheat. Now, that does serve as some 
green browse for Canada geese and deer and turkey, but it does 
not provide the energy source that is there for wildlife. So we 
are vitally concerned about the movement to the passive use or 
letting nature take its course. The only benefit it has, it 
costs nothing. So it all relates back to money.
    On Blackwater here, my company administers a conservation 
seed program where we make seed available for people who will 
plant it for wildlife. We do about a million acres total in 
States east of the Rockies. Most of it is on private land, but 
here on Blackwater and at Eastern Neck and over in Delaware, we 
provide the seed to them free of charge so they can have that 
seed to plant for wildlife, and we continue to do that program. 
We don't object to doing it. We consider it a privilege. It 
also serves as a demonstration area to the public who visit 
Blackwater, to see what intensive wildlife management can do as 
far as sustaining wildlife populations.
    We are excited about the use of Blackwater as a 
recreational area. We think it can be expanded and should be 
expanded, and anything that we can do to assist that, we are 
certainly prepared to do so. Thank you.
    [The prepared statement of Mr. Johnson follows:]

Statement of W. Ladd Johnson, President, Resource Management, Inc., and 
                Chairman, Maryland Waterfowl Commission

    Thank you for asking me to participate in this hearing. Blackwater 
National Wildlife Refuge has always been a favorite area for me. Its 
history is of particular interest since my uncle; Mr. Peter VanHussian 
was its first manager. Since then, I do not think there has not been a 
manager that I have not had as a friend.
    We are excited about the possibility of Blackwater expanding its 
recreational use by the public. We understand that presently, the 
refuge offers deer hunting--archery, black powder, shotgun and youth 
hunting. So far every applicant has been accommodated. One statistic 
that is interesting is that of the approximately 3000 people who 
participated were non-resident hunters. This is exciting since it meant 
hard currency to our local economy for room rents, restaurants, 
sporting goods stores, etc. Also, exciting is the potential of 
expanding hunting activities to turkey hunting. This sport is the 
fastest growing hunting sport in North America and is certainly going 
to be paramount to sport hunting to Maryland.
    Secondly, I see a future for waterfowl hunting on Blackwater. One 
fine opportunity is a resident Canada goose hunting. The problems 
created not only on the refuge but other agricultural areas by resident 
Canada geese are profound; any way to control their numbers and 
depredation should certainly be encouraged. Perhaps the expansion of 
the refuge to the Nanticoke River Watershed could allow the hunting of 
ducks and migratory geese in those areas. On the refuge proper, those 
areas around the agricultural fields, marshland, and woodlands, 
migratory waterfowl should be prohibited. The habitat in these areas is 
critical to sustain those migratory populations.
    Other areas that could be expanded for refuge recreational use are 
those of ``Non-Consumption Uses.'' Certainly, the continued use of 
observation/photography should be encouraged. Presently, over 500,000 
plus persons use the refuge for this entertainment. One important 
element that could increase this type of activity is an educational 
center; educational classes featuring lectures on endangered species, 
invasive plants, etc. on a scheduled basis would create public 
awareness. Hunter educational classes for the youth describing how 
hunting is an American and a Maryland heritage along with the 
prescribed hunter safety courses could all be designed within the 
educational center.
    Lastly, there are a few comments that we would like to make 
concerning the operations of refuge and most national refuges. We are 
greatly concerned with the new direction of land management on the 
national refuges. The present movement of land management that we have 
labeled as ``passive management'' is the virtual act of doing nothing 
and letting nature take its course. The USFWS has another grandiose 
name for it; but the definition is the same (The act of doing nothing). 
This type of land management is not wise as a practice of sustaining 
waterfowl and wildlife populations. The only benefit it has is that it 
cost the government nothing; it cost wildlife a great deal.
    Today's agricultural practices and equipment leave very little as a 
nutritional food source for wildlife. Combines leave little grain 
residue for wildlife consumption. Corn and soybean fields that would 
remain after harvest are now being plowed and converted to wheat or 
barley. These crops do offer green browse but in harsh winter months 
they don't supply the necessary carbohydrates and energy sources needed 
to sustain wildlife.
    We encourage you to please review this policy and plan budgetary 
funding for what we call ``Intensive Wildlife Management.'' Presently, 
we provide seeds through our ``Conservation Seed Program'' for food 
plots for wildlife. Over one million acres are planted under this 
program annually. Ninety percent is performed on private lands; the 
rest is in state wildlife management areas. The private and state 
sectors know the importance of ``Intensive Wildlife Management'' Why 
does the USFWS look the other way? This year, we are donating the seed 
to Blackwater in order that they can plant their lands. We do not 
object to donating this seed, we do object to the policies of the 
service of ``Passive Wildlife Management.--
    Civilization has claimed much of the habitat of our nations 
wildlife. The habitat that was present when the colonies were 
established is now gone. Therefore, we must sustain our nations 
wildlife on much fewer acres; the reason for active wildlife 
management. The service should be demonstrating by action the 
activities of conservation tillage, eradication of invasive plant 
species, reclamation of lost wetlands, and maximization of food sources 
for our nations wildlife.
    Thank you for allowing us to participate.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Johnson.
    Mr. Guy Willey.

      STATEMENT OF GUY W. WILLEY, SR., WILDLIFE TECHNICIAN

    Mr. Willey. Mr. Chairman, my name is Guy Willey, Sr. I 
retired after 30 years from the Fish and Wildlife Service, and 
I have more than a half century trapping the marshes and 
uplands of Dorchester County and on the Eastern Shore.
    Before and since my retirement in 1985, I have been 
actively employed as a private and contractual trapper, working 
both for the Department of Natural Resources, Fish and 
Wildlife, and Tudor Farms. I continue to rent public marshlands 
for trapping purposes. I feel that I have a significant amount 
of knowledge to share with you today. It is therefore with 
great pride that I thank you for the opportunity to testify on 
how I believe trappers can help control invasive species such 
as the nutria on Blackwater and other refuges within the 
National Wildlife System.
    I began my career as a biological technician in the late 
1940's, at a time when muskrat trapping was a primary activity 
on Blackwater. During the early years when the refuge was 
established in 1933, it served as a fur experimental station. 
Muskrats, some of the finest in the Nation, were abundant in 
those years, and the annual harvest exceeded more than 25,000 
from the refuge marshlands.
    At that time the refuge only consisted of about 10,000 
acres, 7,000 being marshlands. The three-square bulrush spread 
as far as the eye could see, and muskrat houses were so 
numerous in many places that you could step from house to 
house. But as you all know, we have now seen the change due to 
sea level rise, salt water intrusion, and the destruction by 
the nutria. Muskrat harvest on the refuge has decreased to an 
average of 4,000 a year, and the harvest continues to get less 
and less.
    This is because the nutria that were introduced in the 
1940's and '50's have destroyed much of the habitat that is so 
valuable to waterfowl and muskrat. Nutria were released by 
several of the locals in the 1950's, and the population has now 
grown to an estimated 35,000 to 50,000 on the refuge alone. Our 
most productive wetlands are remnants of their former size, and 
the wildlife in the area has suffered along with the local 
economy, which for centuries depended on extra revenue from 
furbearers and other natural resources.
    And I could add a little bit about that. We have had, back 
in the 1950's and '60's we had Senators and people that have 
served in the Maryland House, and I am talking about Senator 
Malkus, who said that farming was so bad back in the early when 
he was going to school, after he came out of World War II, that 
muskrat had supported him, put him through college. And I 
really believe that, because of the value of the fur. As you 
all know, the fur prices have now decreased so that it is 
almost not worthwhile, with the amount of jobs available, even 
to have a trapper trap.
    In more than 50 years experience as a trapper, I have 
gained knowledge of the Chesapeake Bay, the wetlands and 
woodlands of the Eastern Shore. Since the early '50's I have 
seen the human population explosion along the Bay, and I have 
watched many species drop to record low numbers. First we had 
the diving duck population, then the black ducks declined, and 
later the Canada goose population decreased. All these species 
have been placed in a position where the seasons have been 
closed or restricted.
    However, the most alarming problems in my mind are the loss 
of the wetlands, both the marsh vegetation and submerged 
vegetation, and the growing invasion of the exotic species like 
the nutria, phragmites, loosestrife, gypsy moth, mute swans, 
and resident geese that compete with our native wildlife. These 
problems must be taken care of before it is too late.
    The loss of wetlands affects the waterfowl, eagles, and the 
fish and crab life in the Bay and its waters. The economy and 
life of the residents of the Eastern Shore are affected. Our 
national wildlife refuges should not be havens for these 
species, and should set the example for providing the best 
practices for how private landowners can control the species on 
their land.
    Probably my greatest contribution in helping deal with 
these problems of wetland loss caused by especially the nutria 
can be gained through the knowledge that I have attained over 
my years as a trapper. Other trappers and I were willing to 
work with the refuge staff to apply new methods and experiment 
to take care of, control these species like the nutria.
    For example, since 1990 refuge trappers, working only on 
the incentive of $1.50 in their bid for each nutria harvested, 
have removed more than 34,000, according to the refuge records. 
My understanding of the 3-year pilot program is that 50 percent 
of the current trappers employed are experienced local trappers 
which have demonstrated interest in the local level of 
attempting to deal with these problems.
    It is when the pilot program has been completed that the 
real work will begin. I believe it will be the local trapper 
who will be able to take the new methods from the pilot program 
and use them to help achieve the goal of complete eradication. 
There is also the issue of access to private lands to help 
control invasives, such as nutria, which can subsequently 
reinfest the refuge even if the refuge control is successful. 
Therefore, local trappers must be the key in achieving success 
on private lands.
    And I would like to add a little something. Many of the 
private lands, like Laddie mentioned before, are under lease to 
waterfowl, deer, turkey hunting. Sometimes these leases net a 
good return to the owners. Therefore, the nutria removal will 
be in conflict with these activities.
    And there are some landowners who have a dislike for the 
Federal and State government and may not want to cooperate. 
Some of the dislike has been brought on by law enforcement 
activities, restriction on land due to the Critical Areas Act 
by the State, and the problem with the Delmarva fox squirrel 
and eagle regulations placed on them in the Endangered Species 
Act.
    Mr. Chairman, while I have the opportunity, I would also 
like to say a few words about the status of our refuges and 
what I see as the major issues facing Blackwater today. As a 
retired career employee and life resident of the area, I see 
things that maybe other folks don't see and hear easily, and I 
hope that the folks with the Fish and Wildlife Service will 
find useful.
    Funding is needed not only to control the nutria and slow 
down the decline of these important habitats on the National 
Refuges and State and private lands, but also to properly meet 
the other mandates the refuges have. And I have listed in this 
little letter I wrote to you all, the major issues I see as the 
following.
    Right now there is a move on I saw on TV, in Delaware, 
which you are not a Congressman from Delaware but it still 
affects, that Prime Hook was planting trees in lands that were 
purchased for waterfowl. Prime Hook Refuge was purchased back 
as a waterfowl refuge because of the decline in the duck 
population and the snow goose problem they had. But they had a 
big story on Channel 16 the other night and said that they were 
planting all these fields back into pine trees because this way 
they wouldn't have to farm, so it cuts back on the cost.
    But this kind of makes it crazy to me, because if you 
decrease the farming operations, here we are trying to manage 
for the Delmarva fox squirrel, and in the years of low mast 
when you don't have much acorns and all, what we find, these 
squirrels will survive on the corn and milo left on a lot of 
these areas that are left for wildlife use, like many farmers 
will leave the edge. They leave it for deer, or they may leave 
it for turkey, and the squirrel is a beneficiary of it. So it 
kind of makes me wonder what is happening, if they are going to 
start planting just trees, just to plant trees.
    Also here at Blackwater I feel that we should continue to 
fund the nutria program, provide more maintenance funds for 
building roads and dikes. And probably the most, the biggest 
problem that we have here at Blackwater is, back in the late 
'80's there was a break from the Chesapeake Bay that entered 
Parsons Creek.
    And what happened, when the break happened, it cut through 
the upper Blackwater, and then the salt water invaded the upper 
Blackwater, and now the salt water flows from the Chesapeake 
Bay all the way back out to Fishing Bay again, and this has 
caused a great change in the vegetation, along with the nutria 
damage. And to control this problem, a dam at the upper 
Blackwater River could take care of this by damming off and 
stopping the water from coming in at Taylor's Island and coming 
into the refuge.
    I think that the manager here has talked a lot about it in 
the past years, and I have kept pretty much in touch with him. 
But that is a problem now that should be accomplished even 
before we get done with the nutria population, because if you 
are going to restore the marshes, you want to be able to 
restore vegetation that is going to be native and not something 
that is going to come back in again, like we have in phragmites 
or salt marsh or those type of marshes.
    We should continue to burn the marshes to maintain the 
three-square that we have left. Now, there is a lot of people 
that don't like burning. We have a lot of people that visit the 
refuge, when I left here in 1985, and they come down and they 
see these fires burning on these marshes and they think that is 
terrible. I have had people that talked real bad to me when we 
have been out burning marshes, and they say, ``What are you 
doing?''
    But they don't realize that it does two things. The three-
square plant is a plant like the tulip, and like in the spring 
it is the first plant that comes up. If it doesn't get that 
start, then the other plants take over and that plant doesn't 
do as well. Controlled burning of the marshes helps keep that 
plant, keep the three-square plant and holds it, because the 
three-square plant is one that is becoming endangered not only 
in Maryland but I think also in Louisiana, from what I read, 
and that is the bulrush, three-square bulrush.
    Also, we must continue to burn the woodland areas to 
prevent the summertime fire by reducing fuel in these areas, in 
these pine areas. By doing it in the winter, there is no damage 
to the pines. Because if we don't, then if we get a summertime 
fire, then it is going to destroy the habitat for both the 
Delmarva fox squirrel and the eagles who nest along the edge.
    Also, I think we should increase the effort to control the 
Canada goose, resident Canada goose population. And I know the 
refuge has had a big problem with it, and I don't always agree 
with Glenn on this, and I don't like to see these birds killed, 
and he knows how I feel about it.
    But maybe they could set up a special hunting period on the 
refuge in the fall, where it doesn't interfere with the public, 
close off the drive and say we are going to have a hunt and try 
to kill, knock back some of these 3,000 or 4,000 resident geese 
that do so much damage. If we don't do that, then they will 
continue to increase, because I think when I left in 1985 there 
was only about 1,500. Now they are up to 4,000 or 5,000 
resident birds, and they continue to increase.
    Another thing, too, we have created this problem, and maybe 
Dan don't have much to do with this, but the regulations, when 
we closed the Canada goose season on the Eastern Shore for the 
past years by the State because of the migratory birds, low 
population of birds, and I was in agreement with that, we have 
also created a problem because many of these local Canada geese 
were killed in the five-mile area of the refuge, and the reason 
we know this, because we had a lot of them collared with the 
white collars on them. And by not killing those birds, there is 
no hunting season so these birds continue to increase.
    And what is happening now to the birds, why the farmers are 
raising so much hell, is because the birds are so tame after 
four or five years of not hunting, they will walk right on up 
to the barn. They are right in your back yard, even the 
migratory birds.
    And what is going to happen is, if we don't have some kind 
of season, the migratory birds are going to be knocked back 
real heavy because they are going to be so dumb when they come 
in, in the first few years. The young will be killed off again, 
and then we will wonder why we don't have any migratory birds, 
because the younger they are will be the ones not going to be 
as smart.
    Mr. Gilchrest. Mr. Willey, I think if you are just about 
done, we need to move on.
    Mr. Willey. Yes, I am done.
    Mr. Gilchrest. You will be able to add some more of your 
experience.
    Mr. Willey. Yes, that is all. I am going to say one thing 
in closing. I appreciate you all letting me talk, and Glenn 
knew that I couldn't say what I had to say in five minutes.
    Mr. Gilchrest. Glenn didn't warn us about that.
    [Laughter.]
    Mr. Gilchrest. Well, thank you very much, Mr. Willey. We 
appreciate your testimony, and your years of valuable 
experience will be important to us to help continue to manage 
this refuge and the Nation's refuges.
    [The prepared statement of Mr. Willey follows:]

          Statement of Guy W. Willey, Sr., Wildlife Technician

    Mr. Chairman, my name is Guy W. Willey, Sr. I am a retired 30 year 
career employee with the U.S. Fish and Wildlife Service, and have more 
than half a century of experience trapping the marshes and uplands of 
Dorchester County and Maryland's Eastern Shore. Before and since my 
retirement in 1985, I have been actively employed as a private and 
contractual trapper working for the Maryland Department of Natural 
Resources, the Fish and Wildlife Service, and Tudor Farms. I continue 
to rent private and public marshlands for trapping purposes, and feel 
that I have a significant amount of knowledge to share with you today. 
It is therefore with great pride that I thank you for the opportunity 
to testify on how I believe trappers can help control invasive species, 
particularly nutria, on Blackwater National Wildlife Refuge and other 
refuges within the National Wildlife Refuge System.
    I began my career as a Biological Technician with the U. S. Fish 
and Wildlife Service in the late 1940's at a time when muskrat trapping 
was a primary activity on Blackwater Refuge. During the early years 
after the refuge's establishment in 1933, Blackwater served as a 
furbearer experimental station. Muskrats, some of the finest quality in 
the nation, were abundant in those years, and the annual harvest often 
exceeded 25,000 from refuge marshlands. The lush three square bulrush 
marshes spread as far as the eye could see, and muskrat houses were so 
numerous that in many places that you could step from one house to the 
next. But as you know, all that has now changed due to a number of 
factors including sea level rise, land subsidence, salt water 
intrusion, and the destructive nutria. Muskrat harvest on the refuge 
has decreased to an average of about 4,000 a year, and the harvest 
continues to get less and less each year. Nutria were introduced to the 
area in 1943 to determine if they could survive the northern climate 
and cold winters, thereby stimulating the fur economy. Nutria were 
released by several of the locals in the early 1950's. As you know, the 
population quickly grew to the more than 35,000 to 50,000 that are 
estimated to be on Blackwater Refuge today. Our once productive 
marshlands are but remnants of their former size, and all the wildlife 
in the area has suffered, along with the local economy that has.for 
centuries depended on the extra revenue from our furbearers and other 
natural resources. What was once large expanses of marshlands are now 
shallow unproductive waters that have high amounts of suspended 
sediments and support little wildlife.
    In more than 50 years of experience as a trapper, I have gained a 
thorough knowledge of the Chesapeake Bay, the wetlands, and woodlands 
of the Eastern Shore. Since the early `50's, I have seen the human 
population explosion along the Bay and I have watched many species drop 
to record low numbers. First, the diving duck population, then the 
black ducks declined, and later the Canada goose populations decreased. 
All the above species have been placed in a position where seasons have 
been closed or restricted. However, the most alarming problems in my 
mind are the loss of wetlands, both marsh vegetation and submerged 
vegetation, and the growing invasion of exotic species like the nutria, 
phragmites, purple loosestrife, gypsy moth, mute swans, and many other 
species that often out compete our native wildlife. These problems must 
be taken care of before it's too late. The loss of wetlands affects the 
waterfowl, eagles, and the fish and crab life of the Bay and its 
waters. The economy and life of the residents of the Eastern Shore are 
also affected. Our national wildlife refuges should not be havens for 
these species, and they should set the example for providing the best 
practices on how private landowners can effectively control these 
species on their lands.
    I believe that my greatest contribution in helping deal with these 
problems of wetland loss caused by invasive species is in the knowledge 
I have obtained throughout my years as a trapper. Other trappers and I 
are willing to work with refuge staff to apply new methods and 
experiment with new strategies to help control invasive species like 
nutria. For example, since 1990 refuge trappers, working on only the 
incentive of $1.50 reduction in their trapping bid for each nutria 
harvested, have removed 34,300 nutria according to refuge records. My 
understanding of the 3year pilot program is that 50% of the current 
trappers employed are experienced local trappers, which had 
demonstrated interest at the local level in attempting to deal with 
these problems. It's when the pilot program has been completed, that 
the real work begins. I believe it will be the local trappers who will 
be able to take the new methods and strategies that this pilot effort 
will provide, and use them to help achieve the ultimate goal which is 
eradication. There is also the issue of access onto private lands to 
help control invasives, such as nutria, which can subsequently 
reinfects the refuge even if the refuge is successful. Local trappers 
will be the key to achieving success on private lands.
    In order to achieve this goal, we need to enlist the support and 
help of all landowners within the current range of nutria. What better 
individuals to assist in that coordination and action than the trappers 
and hunters which currently use those lands.
    Mr. Chairman, while I have the opportunity, I'd also like to say a 
few words about the status of our refuges and what I see as the major 
issues faced by Blackwater Refuge today other than the issues with 
invasives. As a retired career employee and life resident of this area, 
I see things that others might not as easily see and hear things that 
others might not as easily hear that I hope you and the folks with the 
Fish and Wildlife Service will find useful.
    Obviously funding is needed not only to control invasives and slow 
down the rate of decline of these important habitats found on our 
National Refuges, State and Private lands adjacent to the Bay, but also 
to properly meet the many other mandates that our refuges have.
    The major issues I see today are as follows:
    1. Increase the farming operations to provide more food for the DFS 
(Delmarva fox squirrel) as well as waterfowl. Small areas of corn, milo 
and soybean sometimes (in a year of low mast production) mean the 
difference between maintaining the endangered DFS population at a good 
level.
    2. Provide more maintenance funds for buildings, roads and dikes.
    3. Continue to fund the nutria reduction program.
    4. Begin to stop the erosion of the marsh by cutting off the salt 
water from the bay, which is now entering the refuge from Parsons 
Creek, (a dam in the upper Blackwater River can accomplish this).
    5. Continue to control burn the marshes to maintain the three-
square marsh, so important to waterfowl. Burn woodland areas to prevent 
summer time fires by reducing fuels. This will maintain the adjacent 
wooded areas for both the DFS and the Bald Eagle population.
    6. Increase efforts to control the resident Canada goose 
population. This may require a special hunting period in the early 
fall.
    7. Open the season on the refuge for a small period on the snow 
goose population, which continues to increase on the Eastern Shore. 
This specie is doing damage to many of the refuges.
    8. The acres of Barren Island, Smith Island and many private owned 
lands continue to erode in the bay. The Department of Interior must 
work along with the Corp of Engineers to find the best method and cost 
efficient way to slow down this erosion problem.
    9. I believe the loss of the wetlands and shore erosion, which 
places a heavy sediment load in the bay and rivers. This will be the 
downfall of the bays production of the crabs, oysters, fish and all the 
other species that depend on it.
    In closing, dedication by the Congress will help begin the process 
to restore our refuges to a higher standard and place pride back in our 
employees.
    Thanks, for the opportunity to be heard by the Committee.
                                 ______
                                 
    Mr. Gilchrest. I might say to some of the local farmers 
that have geese problems, though, a couple of shots from a 
shotgun every once in a while does a lot of good to scare the 
geese off, or just let the dog go. But, anyway, I know there is 
a problem with the resident geese, and that is one of the areas 
that we certainly want to try to cover.
    What I would like to do now is to just ask the panel a 
number of questions dealing with a whole range of activities: 
the comprehensive conservation plans, how they are moving along 
nationwide, but in particular with Blackwater; certainly deal 
with the nutria problem; get some feedback between Mr. Ashe and 
Mr. Johnson about passive or intensive management and is one 
more appropriate than the other, or is a region dependent 
upon--the use of passive might be good for one place, the use 
of intensive might be better management for another area; so 
those kinds of things.
    I would like to start, though, with Mr. Ashe, and there is 
never enough money, it seems. I have a daughter in college, and 
there never seems to be enough, quite enough money.
    [Laughter]
    The difference between the National Park Service funding 
and our refuge funding is rather dramatic, and I would like to 
ask you your opinion on how we could better bring that into 
some more, a little more equity. I mean, when you consider the 
number of acres in America's refuges and the number of acres in 
our National Park System, we have a lot more acres in the 
refuges, and the growing population of visitors has 
dramatically increased. And the importance of the refuges to 
wildlife, to biological diversity, to an outdoor school for us 
to understand ecosystems and precedents for ecosystem 
management is pretty extraordinary.
    The other thing is, Fish and Wildlife--and I know, Dan, you 
didn't make up the President's budget, I don't think--are 
asking, the Service is asking for $2.7 million for invasive 
species control. Now, if we are asking for $1.9 million for 
Blackwater and $2.7 million is requested nationwide, is that 
enough? Would you describe it as a pittance?
    Mr. Ashe. To answer your question, no, it is not enough to 
address the needs. If you just look, as I said, at our refuge 
operating needs database, as we did in preparation for this 
hearing, and you query the database and say how many projects 
are there pertaining to invasive species (and these are 
projects that have been identified by our managers nationwide), 
there are over 300 projects totaling more than $120 million. We 
anticipate that that will probably be over $150 million by the 
end of this year, in terms of projects that have been 
identified by our managers as things they need to do in order 
to address invasive species.
    Mr. Gilchrest. You are saying about $150 million in 
identified projects, with $2.7 million requested?
    Mr. Ashe. That is correct. Clearly our needs outstrip our 
capacity, and so what we have to do in that context is set 
priorities. Your question was a large one, and I guess I would 
maybe back up and say, I have a lot of respect for President 
Bush. He made a commitment in the context of his campaign that 
he was going to deal with the Park System maintenance backlog.
    And those of us in the Fish and Wildlife Service, every 
time we heard the word ``parks'' come out of his mouth, we 
wanted him to say ``and refuges.'' Many of us were working to 
try to get him to do that at that point in time. It didn't 
happen, and so his budget for this year reflects his campaign 
promise, which was to deal with the issue of Park System 
maintenance.
    And so what we have been and are continuing to do is to 
work within the Administration to try to raise the profile and 
the priority of the Refuge System. I think we have had good 
success. The dollars that we have in the budget now are there 
because we did push the issue within the Administration and we 
did get the support of Secretary Norton for the increase that 
we have in our budget. The Fish and Wildlife Service and the 
Park Service are the only two agencies within the Department of 
the Interior that are seeing increases for this year. So we 
were successful. Yet, our needs outstrip our available dollars. 
That is--
    Mr. Gilchrest. It is a massive problem. Well, we will--
    Mr. Ashe. I want to say thank you because I know you and 
Congressman Hansen have written to President Bush, and I know 
other Members are working on behalf of the Refuge System, and I 
think that is what needs to happen.
    Mr. Gilchrest. Sure. I guess when you look at the problems 
with Medicare, Medicaid, education, national defense, bridges 
that are falling down, the whole range of Federal 
responsibilities, this unfortunately takes short shrift to 
those things. But we will continue to push to get the 
appropriate funding in a priority sense, and Blackwater will be 
one of those areas, because of the urgency that we are seeing.
    Ms. Thompson, the State participation in this has been very 
well performed, and we appreciate that. I just have a couple of 
questions. The eradication program, you talked about, explained 
eradication. There are control sites and there are eradication 
sites.
    Ms. Thompson. Well, they are one and the same thing. In the 
treatment, you mean, in the pilot program?
    Mr. Gilchrest. Yes.
    Ms. Thompson. There are generally, in a research, you know, 
scientific research projects, you have a control and you have 
an experimental measurement that you are taking. So we have 
control sites where we are doing nothing, and we have treatment 
sites where we are going to do intensive eradication in 2002 to 
see--
    Mr. Gilchrest. And the control sites are a measure to see 
the reaction--
    Ms. Thompson. Of the population.
    Mr. Gilchrest. --from the actual eradication?
    Ms. Thompson. Yes.
    Mr. Gilchrest. To see if there is any extra activity as far 
as procreation is concerned, or change of activity or movement 
by the nutria?
    Ms. Thompson. Exactly. We want to see where they go. We 
want to see if they run away. We want to see if they respond 
reproductively to the population reduction that we're 
conducting there, and give us some information about--what we 
essentially don't want to do is just start an eradication 
program and make some mistakes, expensive mistakes that are 
caused by the biology of the animal which we are just, you 
know, trying to understand, or that are caused by environmental 
factors, weather, tides, et cetera.
    In other words, if we had a large increase in sea level 
rise that eliminated some habitat for, let's say, the nutria, 
and we thought we were successful in eradicating them--
    Mr. Gilchrest. Oh, I see.
    Ms. Thompson. --we backed off, and that recovered, they 
would explode again. So we want to understand their interaction 
with their environment and their reproductive response to 
reduction in population before we implement a serious, broad 
eradication program, and that is why we need to get the data 
from the pilot program.
    Mr. Gilchrest. How much money has the State of Maryland 
contributed to the nutria pilot project?
    Ms. Thompson. I knew you would ask that question.
    Mr. Gilchrest. And are those dollars being spent not only 
here in Blackwater, but places such as Tudor Farms or other 
areas?
    Ms. Thompson. You know, I am not familiar with whether or 
not we have contributed actual dollars to the pilot project. We 
have contributed a lot of in-kind, so a tremendous amount of 
salary has gone into it.
    Mr. Gilchrest. I see. So the DNR staff have spent 
considerable time participating in the pilot project?
    Ms. Thompson. Yes. We had our director at the time pretty 
much fully engaged, so we had his--
    Mr. Gilchrest. Who was that?
    Ms. Thompson. He was Mike Slattery, and he is no longer 
with us as of last Thursday, and I am trying to catch up on 
his--
    Mr. Gilchrest. We are very happy to work with you.
    Ms. Thompson. Great.
    Mr. Gilchrest. We were disappointed with Mike Slattery's 
change of career.
    Ms. Thompson. Us, too. We miss him.
    Mr. Gilchrest. Yes, we are all going to miss him.
    Ms. Thompson. But we also have a furbearer biologist, and 
he has been working very much on this, so it is his salary as 
well as equipment and time and so on that we have contributed 
to it.
    Mr. Gilchrest. I see.
    Ms. Thompson. And how much, I would have to get back to you 
on that. We do have the numbers because we used them, 
obviously, for grant processes.
    Mr. Gilchrest. We would appreciate that.
    Ms. Thompson. I will do that.
    Mr. Gilchrest. Can you just quickly tell us, or maybe 
somebody on the panel, how you put a radio collar on a nutria?
    Ms. Thompson. Well, I have to go to my lifeline. Can I go 
to my lifeline?
    Mr. Gilchrest. Sure.
    [Laughter.]
    Ms. Thompson. Where are they? Mark, Mark Sherfy.
    Mr. Sherfy. Yes, Mark Sherfy from the Fish and Wildlife 
Service, the Chesapeake Bay Field Office. Basically, the 
animals are caught in cage traps or a box trap. It takes a team 
of two people to handle the live animal. It is restrained with 
a pole that has got a cable that holds it, basically holds the 
animal down.
    And the collar itself is really nothing more than a piece 
of cable that has got plastic around it, that slips over the 
head and it is tightened down to just the right tension so that 
it stays on the animal. It is not loose enough so the animal 
can get a foot up behind it, and it is not tight enough so that 
it hurts the animal. It just basically rides around the neck 
like a necklace, a little--with the actual radio part hanging 
below the chin, and the antenna back up over the back.
    Mr. Gilchrest. Does it have a big range, do you know yet?
    Mr. Sherfy. Some of them do. Many of the animals who have 
been followed stay within say a couple hundred yards. We have 
had animals that have moved--oh, one that was seven, and a half 
miles, we picked up off of Tudor Farms and headed down the 
river about seven miles. So there are those outliers that pick 
up and move long distances, and those are the ones that are 
really interesting from an eradication standpoint. Those are 
the animals we really need to understand. You know, the ones 
that are staying in a relatively small area are not nearly as 
significant from an eradication standpoint. We need to get the 
ones who are making large distances.
    Mr. Gilchrest. Interesting. Thank you.
    Ms. Thompson. Thank you, Mark.
    Mr. Gilchrest. Can you tell us something about, I guess I 
would like to know a little bit more, and we probably should 
call the Corps on this, the Corps' participation in the 
restoration of the wetlands that apparently have been destroyed 
because of nutria or sea level rise.
    Ms. Thompson. Yes.
    Mr. Gilchrest. How engaged is the Corps in that, or the 
State as partnering with the Corps and Fish and Wildlife? Is 
that at the very early stages?
    Ms. Thompson. Yes, it is the very early stages, and we are 
very engaged but I think we are at the very beginning of that. 
I understand the Corps wants to start their preliminary 
investigation of wetland restoration this summer. They are 
hoping to do that. I got the sense from Steve Kopecky yesterday 
at our meeting that we have some understaffing issues over 
there, as well.
    But that is their intention, to start this summer, and he 
and I are going to sit down in the very near future to talk 
about the 150 acres of marsh restoration that we have been 
planning, I understand, for some time. They are using Federal 
grant money to do that, so obviously we need a non-Federal 
match. The State is going to be providing that non-Federal 
match as a budget amendment in FY '02. So we need to sit down 
still and talk about what our goals are and how much money the 
State needs to contribute in that amount.
    Mr. Gilchrest. I know it is at the very early stages of 
that, but I would assume if you are going to restore some 
wetlands, that there is going to be some material moved from 
one place to another.
    Ms. Thompson. Yes.
    Mr. Gilchrest. And would that likely be dredge material, 
and where might that material be dredged from?
    Ms. Thompson. Those are all tricky issues, and I understand 
we are still discussing them. From what we talked about 
yesterday, we are still discussing that. It is still a little 
uncertain.
    It is also uncertain how the marsh restoration would occur 
in the areas where we are doing eradication, would that 
conflict, and we need to resolve that still. So as soon as we 
do, we will let you know what happened and where we are going, 
but we are still--
    Mr. Gilchrest. And we would like to be, along with the 
refuge here and certainly probably with some of the people at 
this table, we would like to stay engaged in that process--
    Ms. Thompson. Absolutely.
    Mr. Gilchrest. --to help with whatever funding was 
possible.
    Ms. Thompson. Absolutely.
    Mr. Gilchrest. Certainly where the dredge material might 
come from, I would assume--
    Ms. Thompson. I think what we can commit to is an update 
for you and all of our partners on what we are doing, what we 
have decided to do, both in wetland restoration and in the 
eradication, and what we are finding. As we move toward 
eradication and wetland restoration over the next year, that is 
going to be really important, so we will do that.
    Mr. Gilchrest. Thank you. Mr. Tillier, can you comment on--
you made a comment about the restoration or planting grass on 
Barren Island. First of all, I found your testimony fascinating 
in the amount of work that you and your colleagues do for 
America, basically, on this refuge. I was wondering if all of 
the people that are working with you are retired, or you do 
this after hours, or you get mileage or some kind of insurance 
coverage or however that works. But we certainly appreciate all 
that you are engaged in. The restoration and planting grass at 
Barren Island, I found that fascinating.
    Mr. Tillier. Yes, sir. This whole project really began on 
Eastern Neck Wildlife Refuge, where they did a pilot program, 
if you will, and they did some planting of marsh grasses. That 
was done in conjunction with the National Aquarium and also 
with the Corps of Engineers, who moved dredge material over 
there and then they planted.
    Then we were approached here by the Friends of Eastern 
Neck, who had participated in that project, to see if we would 
be interested, and by the National Aquarium, who came to us as 
a group to see if we would be interested in doing something 
here locally. We also since then had an individual by the name 
of John Gill, who is a biologist here on the refuge, 
responsible for the islands, and John Gill is very much 
interested in this project and had been in conversation also 
with people at the National Aquarium, and he asked the Friends 
if we would be interested in doing that.
    So at one of our regular board meetings, we entertained the 
proposal, which we understood would be to do two things: number 
one, to go to Eastern Neck and provide a cadre, a small cadre 
of people from the Friends who would learn how to monitor the 
results of any kind of a planting effort. That is planned for 
the month of May here. Then we are--
    Mr. Gilchrest. So you haven't started planting grass yet?
    Mr. Tillier. No, not yet. We are going to go first to the 
training session with a small cadre. The board then got one of 
our volunteers who is really pulling together the numbers of 
volunteers which we are going to need, which are substantial. 
We are going to need 30 to 60 people a day for up to six days, 
and--
    Mr. Gilchrest. Where would the grass come from?
    Mr. Tillier. I am really not sure where the grass will come 
from. Our emphasis has been on right now trying to get the 
people who are going to get this done.
    Mr. Gilchrest. The Aquarium is providing the grass?
    Mr. Tillier. That is my understanding, but I am not 100 
percent sure.
    Mr. Gilchrest. This is not SAVs. This will be upland 
grasses?
    Mr. Tillier. Again, yes, it is upland grasses.
    Mr. Gilchrest. Will there be any need for dredge material?
    Mr. Tillier. I believe that has already been done.
    Mr. Gilchrest. Oh, it has been done?
    Mr. Tillier. That is in place, so at this point it is going 
to be a matter of getting all of these people out there, and we 
are beginning this planting process on June 4th, so it will run 
over a period of up to six days. It was done, of course, in 
consideration of tides, et cetera.
    Mr. Gilchrest. Yes. I would like, if we have an 
opportunity, I would like to come down and help stick some of 
the shoots in the ground.
    Mr. Tillier. We will definitely--you definitely have an 
invitation, sir.
    Mr. Gilchrest. Thank you. And we certainly appreciate all 
the work you have done in that area.
    Mr. Johnson, I guess I will go to that intensive/passive. I 
want to thank you for all the work you have done on the refuges 
around the country, and I find it fascinating that you provide 
some of that feed for the wildlife for free.
    Mr. Johnson. Well, the best explanation I can give you to 
that is, I dumbed myself into a major industry.
    [Laughter.]
    Mr. Gilchrest. That sounds--that is a good line--that 
sounds like a poor elected official.
    [Laughter.]
    Mr. Johnson. My company is called Resource Management, and 
we are wildlife consultants. We design wildlife habitat, and we 
have designed about 2 million acres for the private sector in 
the past 10 years.
    Mr. Gilchrest. This is across the country?
    Mr. Johnson. Across the country, yes, primarily in the 
South. Most of our work has been in the South, because that is 
where most of the sporting activity takes place. Most of our 
work is to enhance someone's sporting opportunity.
    And in doing so, we were recommending that they plant, this 
crop or that crop, so I got the idea, well, some of these seed 
companies have to have seed left over this year, or a 
discontinued variety that they have to get rid of. And since it 
is treated for planting, it becomes a hazardous waste to them 
when it is no longer on the market.
    So I approached the largest seed company about discounting 
that seed to us, to make it available to clients. And I arrived 
in Des Moines, Iowa, to visit with the Pioneer Seed Company. My 
meeting was at 1:30 and I arrived at 11. They had scheduled a 
tour for me to go around to see their facilities.
    We passed these huge grain bins and I said, ``Gee, is that 
where you keep your seed?'' And they said, ``No, that's where 
we keep our out-of-date seed.'' And they said, ``Do you know it 
costs us a quarter of a million dollars to get rid of that each 
year?'' So I went to the meeting now not asking for a discount, 
with a proposal on how to get rid of their out-of-date seed, 
how to save them a quarter of a million dollars a year.
    [Laughter.]
    And since then we are representing about 80 percent of the 
left-over grain seed in North America. The seed companies 
donate it.
    Mr. Gilchrest. This is grain?
    Mr. Johnson. This is corn, grain sorghum, sunflowers, 
wheat, barley, oats, any treated seed.
    Mr. Gilchrest. So when you take that grain and distribute 
it in various places, is it planted or is it just spread for 
feed?
    Mr. Johnson. It is planted.
    Mr. Gilchrest. It is planted?
    Mr. Johnson. It is planted. It can't be put back in the 
food chain because it is treated. We are putting it back in the 
ground, which was its intended use, but instead of being 
planted for profit, we are planting it now for wildlife.
    Mr. Gilchrest. Does this go to private landowners?
    Mr. Johnson. Private landowners. Each person--
    Mr. Gilchrest. Does any of it go to refuges or for State 
land?
    Mr. Johnson. Yes, almost every Federal refuge that has a 
planting program is using this program, yes. The way it works--
    Mr. Gilchrest. How is it--
    Mr. Johnson. --we have designed it to go through nonprofit 
organizations. The Wild Turkey Federation is our largest. Quail 
Unlimited is second.
    Mr. Gilchrest. Who distributes the seed?
    Mr. Johnson. The various chapters of those organizations. 
Each person who receives one bag signs a disclaimer that he is 
going to plant it and leave it for wildlife; that it cannot be 
traded, sold or harvested for profit. And in seven years, sir, 
not one person has violated that.
    The policing mechanism are the people and the chapters 
themselves, because we have made it perfectly clear that if one 
person in a chapter violates it, that chapter can no longer 
participate. So we have actually had members hear rumors that 
someone was going to plant corn and harvest it for silage, and 
they went out and picked it up out of his barn and took it 
back. They wouldn't even let him do it on a rumor. So that 
program has been very effective.
    Mr. Gilchrest. That is tough.
    Mr. Johnson. So that is how the seed program started.
    Mr. Gilchrest. I see.
    Mr. Johnson. The private sector is utilizing what I 
described to you as intensive management. The tonnage and 
energy generated from intensive management far exceeds what I 
described as passive management.
    A few years ago ``moist soil management'' was the buzz word 
in Washington for waterfowl habitat. Moist soil management has 
its place, but moist soil management is nothing more than a wet 
weed patch. It does create some energy, it does create some 
microorganisms that will generate when you put water on it, but 
nothing near the tonnage that grain crops will do.
    Agriculture has changed so much since the '50's until now, 
the residue is no longer there for wildlife, so we have to look 
at intensive management. And the private sector, quite frankly, 
is doing a magnificent job. In some cases the State is 
utilizing intensive management, also.
    Mr. Gilchrest. Let me just jump now to Mr. Ashe on passive 
management versus intensive management. Based on what Mr. 
Johnson said in his testimony and has just alluded to now, can 
you comment on that as far as our Refuge System is concerned?
    Mr. Ashe. I guess I would just say I am a little bit 
perplexed, and maybe if we have a discussion we will get down 
to the root of the issue. I mean, I am very familiar with our 
Refuge System, and we do intensive management. We do some of 
the most intensive management in the world.
    If you go to refuges like Sacramento River or Klamath 
National Wildlife Refuge, you will see intensively managed 
refuges, the entire breadth of which look like what you see 
behind you here in Blackwater, with impoundments and farm 
fields. And we do that because the habitat has been so altered 
that it is necessary for us to do that.
    Sacramento River Refuge and San Luis Refuge in the Central 
Valley of California provide the wintering habitat for the 
remaining population of Aleutian Canada goose (which we just 
delisted, or took off the Endangered Species List) so we have 
to manage those lands intensively to support those birds. They 
have plenty of habitat on the northern breeding range in 
Alaska. When they come to their wintering range in the Central 
Valley of California, Sac River and San Luis are all they have 
left, so we have to manage and do manage those refuges very 
intensively. The same thing for Klamath, and the same thing at 
Bosque del Apache along the Rio Grande. We manage land very 
intensively where we need to manage land.
    Mr. Gilchrest. Are there areas, then, that the Fish and 
Wildlife is considering less intensive management? Mr. Johnson, 
is this something that you have heard, or is it a direction--
    Mr. Johnson. No, I understand that there is a directive 
out, and I forget, there is a name for this directive, and I 
apologize for not having that with me. But as Mr. Willey 
alluded to Prime Hook, planting Prime Hook's agricultural lands 
in trees when it should be intensively managed for that 
waterfowl population--
    Mr. Gilchrest. Now, this is a Fish and Wildlife Refuge in 
Delaware?
    Mr. Johnson. Yes, and there is a directive out there, I 
believe, that says to put it back the way it was--as a matter 
of fact, it said between 800 and 1800 A.D., is the way the 
directive reads, and I apologize for not having it with me. I 
can make it available to you, but there is a directive.
    Mr. Gilchrest. A policy of maintaining--oh, I see, this is 
the issue of ecological integrity.
    Mr. Johnson. That is it.
    Mr. Ashe. The ecological integrity policy and biological 
integrity policy does not tell our managers to let nature take 
its course. That is not the purpose of the integrity policy. In 
fact, the policy recognizes that, in many cases, to achieve our 
purpose at our refuges, we do have to manage intensively, 
depending upon the nature of our business and what our purpose 
is at the refuge.
    Mr. Johnson is right, we do a substantial amount of moist 
soil management on refuges, because what we have realized as a 
result of the developing science on moist soil management is 
that we can manage areas for waterfowl, we can produce ``hot 
food,'' as they say in the wildlife business, for migrating 
waterfowl, but also continue to manage those areas to provide 
the wetland benefits that benefit a diversity of species.
    So that we can rely principally on native plants, we can 
leave areas in their wetland state, not as a drained farm field 
but leave them in their wetland state. We can also manage the 
water levels better at that point to benefit migrating 
shorebirds as well, so that we get more out of those areas by 
managing them in that way. We are not managing exclusively for 
waterfowl, but we are managing then for a diverse array of 
wildlife species.
    Mr. Gilchrest. Would there be, in the process of planning, 
the concept of passive management versus intensive management, 
would the goal for the refuge be different under passive 
management versus intensive management?
    Mr. Ashe. The goal of the refuges, I mean, our refuge, each 
refuge has--
    Mr. Gilchrest. Would the goal then be more broad for 
passive versus intensive?
    Mr. Ashe. Each refuge has a purpose, and I agree, refuges 
like Blackwater and Prime Hook are refuges that were 
established for migratory birds, principally waterfowl. And so 
we have an obligation to meet our purpose. That is also 
reflected in our integrity policy: our first responsibility is 
to accomplish our purpose. If that purpose is waterfowl 
conservation, then we first have to accomplish waterfowl 
conservation.
    But we also have a responsibility to manage our refuges 
for, in many cases, for a variety of migratory waterfowl or 
migratory species, in some cases endangered species like the 
Delmarva fox squirrel here at Blackwater. So we have to manage 
for those also. So those purposes are going to dictate how we 
manage. In some cases, again, at our refuges we are looking at 
how we can manage the same piece of real estate, for waterfowl 
purposes, but also manage them for migrating shore birds.
    And I don't know the issue at Prime Hook. Maybe it is 
funding. Maybe the manager is saying, ``I can't farm those 
fields because I don't have the dollars to farm them, so in 
order to prevent invasives from coming in and other problems, 
I'm going to put them back into trees. I'm going to put that 
area back into forest.'' It is also possible that the manager 
may have said, ``In order to provide benefits for migrating 
neotropical songbirds, I need more forest habitat on the 
refuge.''
    We can learn more about that case, but usually when a 
manager is doing something like that, they are doing it for a 
management reason. They are doing it because they have a reason 
to do it. And my guess would be that they have looked at the 
issue and they have said, ``We can accomplish our waterfowl 
purpose through other means or existing means. What we need on 
this refuge is additional forest habitat to support migrating 
songbirds.''
    Mr. Gilchrest. Mr. Johnson?
    Mr. Johnson. I think he just, Dan hit it on the head. Most 
of the comments I get back from the refuge managers that we are 
participating with, if it wasn't for our give-away seed program 
furnishing seed to them at 50 cents a bag or $2 a bag versus 
$80 or $100 a bag, they could not plant that crop.
    Now, what we have done also is, in many cases we have 
donated the seed to them. This seed may cost $100 a bag. A bag 
plants four acres. We will give them a letter of in-kind 
contribution at a 50 percent value. The companies let us do 
this, so I can write Blackwater a letter and say, ``We're 
giving you an in-kind grant of $2,000 worth of seed,'' which 
they then can go to the Fish and Wildlife Foundation and use as 
a matching grant to try to get enough money for fertilizer. So, 
I mean, therein lies the problem, that most of the time--
    Mr. Gilchrest. We have a lot of chicken manure on the 
Eastern Shore.
    [Laughter.]
    Mr. Johnson. --it is being converted to passive management 
because they just don't have the money to farm it.
    Mr. Gilchrest. Would you say the size of the refuge--Dan 
made a comment about passive management in Alaska because it is 
so big, versus intensive management on some of the lower 
refuges because they have been altered and changed and they 
don't have the land mass. Would you say the size of the refuge 
to some extent might dictate either passive or intensive or a 
combination?
    Mr. Johnson. It would be a combination. Blackwater, every 
refuge on the Atlantic Flyway, every refuge on the Mississippi 
and Central Flyway, and even parts of California, urbanization 
has taken so much of their habitat that the refuges are even 
more paramount than they were 30 years ago, as providing the 
nutritional source needed and a place to go hide and rest. As 
we said a while ago, agriculture is not supplying what it used 
to in the past, so they are more dependent on an energy source 
that is going to be consistent and sustainable.
    The trouble with moist soil management, it is sustainable 
for a large population for a short period, where cash grains 
and intensive management produces much more tonnage, produces 
the same invertebrates. The tests that we have run in an 
agricultural field not treated with a herbicide, and in many 
cases we encourage that where we are going to do flooding 
because by not treating with a herbicide, we still get the 
foxtail, we still get the weed growth that does provide some 
tonnage also, but it does not cut down on the invertebrate 
blooms and the invertebrate generation that we can get from 
those flooded facilities. So the tonnage is there. It comes 
down to the amount of energy that you can get out there to the 
wildlife source.
    Mr. Gilchrest. Thank you.
    Mr. Johnson. May I add something else?
    Mr. Gilchrest. Yes.
    Mr. Johnson. Ms. Thompson was talking about what funds were 
available. For instance, on phragmites, on treating invasive 
plants, we use Duck Stamp monies on a cost share program with a 
private entity for phragmites control. Phragmites control 
usually costs about $100 an acre. We are into a cost share 
program using Duck Stamp monies, for the private sector to pay 
50 percent of that.
    We also passed legislation in the State where we can hit 
one-third of the mitigation funds from the Department of the 
Environment, where they mitigate for development and road 
construction and so on and so forth. We can use one-third of 
those funds for phragmites control. And we also get matching 
grants from the Fish and Wildlife Foundation.
    I serve on a board called Pulling Together Initiative that 
makes available about $3 million across the country in cost-
share programs. The money comes from Fish and Wildlife, BLM, 
Department of Defense, and many other avenues. That goes on a 
lot of public lands in the West.
    But we found in Maryland, on phragmites control 
particularly, that we better concentrate on watersheds. There 
is no need to do two acres here on the Chester River and then 
come down and do two acres on the Choptank; that we are going 
to concentrate our funds now and all our cost-share efforts on 
watersheds. For Blackwater to have an intensive program and 
then their neighbor not having an intensive phragmites program 
accomplishes nothing.
    Mr. Gilchrest. Right. This is a big watershed.
    Mr. Johnson. So we are trying to attack it on a watershed 
basis.
    Mr. Gilchrest. I am going to try to make this as quick as 
possible, because we probably don't want to sit here until 3 
o'clock this afternoon, but I do have about 16 questions more, 
and some of them are on phragmites. But I wanted to ask Mr. 
Willey a question, and the phragmites question deals with a 
whole range of other invasive species, what is the value of it 
versus the cost of eradicating it, can we adapt to phragmites, 
and things like that.
    But you are exactly right, if you just do it on--even if 
you just did it in Dorchester, which is a pretty big area for 
eradication of phragmites, they are popping up all over the 
place, and in some areas of the Eastern Shore I think the DNR 
has pretty much given up on it, just letting it go for 
shoreline erosion purposes.
    But, Mr. Willey, it was interesting that you said the loss 
of wetlands was about the biggest problem we have over here, 
partly and fundamentally due to human population activities and 
things like that, and the loss of habitat for a full range of 
wildlife. But nutria in particular, as an invited guest that 
has overstayed its welcome, there are a number of trappers now 
engaged in the pilot project, from I would guess a number of 
places, the Eastern Shore plus other States.
    Could you give us, if you know, some idea of how many local 
trappers are involved in the pilot project? And Ms. Thompson 
made a comment, alluded to the fact that we are going to need 
about twice as many trappers when the pilot project is over, 
and do you see that being a problem with continuing this 
program, or are there enough local trappers that could handle 
the full roll eradication program? I know that is a long--
    Mr. Willey. Yes, just real briefly, if you are talking 
about, yes, there are several trappers from Maryland, not from 
this county.
    Mr. Gilchrest. Right.
    Mr. Willey. Well, I think there is one or two from this 
county. Edith, is that right?
    Ms. Thompson. Seven in the local area.
    Mr. Willey. Yes.
    Mr. Gilchrest. Which is the lower Shore?
    Mr. Willey. I think about half of them are, if I remember 
correctly. Isn't that--
    Ms. Thompson. Yes. There are 12 total, and 7 from here.
    Mr. Willey. But they are from here. The biggest problem 
with Dorchester, and Glenn could tell you, too, many of these 
trappers that trap here in the winter time are crabbers, like 
from Hooper's Island, Taylor's Island, or the locals, and those 
guys wouldn't sign on because when they had the pilot program, 
the opportunity was there but they didn't sign on because they 
can make more money, normally, crabbing, than they could, and 
they wouldn't accept the job for whatever they pay, you know, 
the pay, if it's $20,000 a year, whatever it may be. They 
wouldn't accept that, and that's your biggest problem with 
getting when you say experienced trappers, someone who has 
trapped extensively.
    I don't think you would have the problem once you get the 
program going. I don't think a lot of them wanted to be 
involved into the marking of animals, like Brian is involved 
into, the marking and recapture and all. I think most of these 
trappers are killers, you know. They want, when they've got the 
animal in hand, get rid of him.
    So I think that's where it would come in. I think you would 
probably be in better shape as the years go by, where they know 
the animal is going to be taken, because we have a lot of 
criticism: Why in the hell are you putting the collar on? You 
know, that is the big problem I think you have got, so I think 
that is the big thing, but I think you would be.
    Now, I am saying this, but not a lot of people I don't 
believe applied, and Edith can tell you that. You probably 
wasn't involved in it at first, but I think Rob Colona was 
involved in it. They were having a little problem getting even 
local people, you know, getting locals even within the State.
    Mr. Gilchrest. That is because they wanted to--
    Mr. Willey. Well, I mean, they got a full time job. They 
are kind of a little bit hesitant--
    Mr. Gilchrest. Is there any way that, once the pilot 
project is done and there is a real good system to eradicate 
these little guys, that someone that does crabbing for part of 
the year could actually come in and trap for part of the year?
    Mr. Willey. Well, this is what I think they have to work 
out. I think they have to work out that. I don't know how to do 
it money-wise, but when we had all our meeting up in Annapolis 
about two years ago when we first started, they talked about 
monetary--you know, what would it cost? The $1.50 came from 
Senator Malkus in the Maryland Legislature. It was proposed for 
$3, and at the time some trapper said, ``Well, I kill about 700 
a day,'' and Fred said, ``Well, he's making more than I am, so 
we'll cut it to $1.50.''
    [Laughter.]
    So that is where $1.50 came in, and the $1.50 has pretty 
much stuck with the State and the Feds.
    Mr. Gilchrest. Is that a reasonable amount, or should it be 
more?
    Mr. Willey. $1.50 for nutria, no, but they get compensated. 
They bid for muskrat on their bid. For instance, they bid $500 
on a tract of marsh, on the unit. Then they get, they can turn 
in the tails of the nutria and they get the $1.50 up to the 
amount that they bid. And then after a certain time that the 
other trappers don't--at the end of, I believe it is at the end 
of February, then in March they can still take more animals. 
They pay the trapper, they can get a return into March, until 
all the money is gone. Say $20,000 is paid into the government 
for trapping leases. It is all paid back to the trapper.
    Mr. Gilchrest. With your experience as a trapper, would you 
say $1.50--
    Mr. Willey. No, you are not going to get too many people to 
trap, and Brian and the guys here, and Edith, she is not real 
involved but Brian is, and he can tell you it is a lot of labor 
in it. You know, you may go out and catch 10 animals. When we 
trapped on Tudor, we trapped from 19--we have got all the 
records, and they have got them--we trapped from 1985, through 
1999, when we stopped trapping at Tudor because they had the 
project there. The State had a project and we didn't want to 
trap where they were doing an experiment.
    But we removed, I think in 1985, around 7,000 animals, and 
we went from 7,000 down to 5,000, then we went down to about 
4,000. Then I think the last year we trapped it was around 
1,900.
    Mr. Gilchrest. Why was the drop, because you were trapping?
    Mr. Willey. Because of the heavy trapping, yes. I mean, 
once you remove 7,000 animals from 7,000 acres, you see a 
difference in the population.
    Brian, is that true or not? Where is Brian?
    Mr. Sherfy. Brian is not here, but I can probably speak to 
that as well. Actually, in the successful effort in Great 
Britain--at the start of this project we brought over Dr. 
Morris Goslin from Great Britain, who had successfully 
eradicated nutria.
    And that was one of their biggest concerns, was, it is not 
hard to start a crew of trappers on an eradication effort but 
it is difficult to keep them motivated and keep them going when 
you get to the end of the eradication effort. When there is 
only a handful of animals out there, and these trappers are 
trapping day in and day out and seeing no animals, then that, 
motivation and compensation for that crew becomes a concern. 
But that effort at the very tail end is critical to the success 
of eradication.
    Mr. Gilchrest. I see.
    Mr. Willey. Well, that may be the answer. I mean, price, 
you know, price will probably take care of anything. I mean, we 
had a guy in Annapolis tell us, ``Put $100 on him, like we did 
some exotic fish, and he won't be there.'' But you know when 
you talk $100 on an animal, if you have got 100,000, then you 
have got a lot of money.
    Mr. Gilchrest. Right. I am not sure if anybody on the panel 
can answer this question. Where else, or where in particular in 
the world are these things found? I know I hear South America. 
Is it Brazil, Argentina, Chile? Brazil?
    Mr. Johnson. Louisiana.
    Mr. Gilchrest. Outside the United States. Is this a species 
unique to South America?
    Mr. Ashe. It is endemic to South America.
    Mr. Gilchrest. And throughout the country, I know there are 
20-some other States that have this same particular problem.
    Ms. Thompson. There is the map.
    Mr. Gilchrest. There it is, right there. England, they 
don't have one nutria in the country? The only nutria they have 
in the country is stuffed? They have no nutria there in 
England?
    Mr. Sherfy. What they based that on was, I think it was 21 
months of very intensive trapping and not catching a single 
animal, so if you ask them to unequivocally state "there are no 
nutria," then they are not 100 percent sure there are no 
animals here. But they trapped intensively for 21 months and 
didn't catch a single animal.
    Mr. Gilchrest. What is the difference between what England 
did and what we are trying to do, other than there is a larger 
area where they are located?
    Mr. Sherfy. What happened in England was ultimately a 
successful effort but they failed in their initial effort 
because they didn't understand the biology of the animal and 
how it responded to the combination of intensive harvest and 
severe winter weather. When they first started trapping the 
animals, they were trapping intensively but they also had 
severe weather, and they didn't understand the interplay 
between those two factors. So they initially knocked the 
population back, and then they backed off on their trapping 
effort and the population rebounded and they weren't prepared 
to deal with that, so they--
    Mr. Gilchrest. So we are in part learning from their 
mistakes?
    Mr. Sherfy. We hope so, yes.
    Mr. Gilchrest. Is there any value to this thing at all? 
Meat?
    Ms. Thompson. Nutria?
    Mr. Gilchrest. Nutria. Is there any value, other than 
eradication?
    Ms. Thompson. Not that we know of. I mean, we encouraged 
people to eat and use them to try to get rid of them, but of 
course there is always a danger when you do that. When you 
don't have them anymore, if people really want that--you know 
what I am saying? It is kind of a Catch-22.
    Mr. Gilchrest. Mr. Johnson?
    Mr. Johnson. Five years ago I said this in jest, but the 
more I think about it, it may come true. My theory of 
eradication of the nutria was to start a rumor in China that it 
had aphrodisiac qualities.
    [Laughter.]
    Mr. Gilchrest. That might save some tigers. You know, I 
think that is a good idea. That could be a headline in the 
Washington Post. That is interesting. Yes, it might save the 
African rhino, or an elephant or tiger or whatever. Maybe it 
could be a protein source for India. Are there already nutria 
in India? Can you raise these things domestically?
    Ms. Thompson. Oh, yes. That is why they were brought here, 
as fur farm animals, essentially.
    Mr. Gilchrest. You know, two things. One, we will ship them 
over to India and other places that have a food source problem, 
and say that they have a certain quality about them. I think 
that is a great idea. Maybe the University of Maryland could 
come out with some sort of statement.
    Anyway, Ms. Thompson, can you tell us what you hope to 
learn from the pilot project?
    Ms. Thompson. I think we hope to learn, and I think we 
probably need to get the word out more about the questions we 
are trying to answer, but I think we are trying to learn the 
best and most efficient trapping method to use, the ones that 
the animals are caught the most in, and the places to put those 
traps, the timing of trapping that catches the most animals, so 
we understand where most of the animals are concentrated.
    You know if we don't understand that, then we waste a lot 
of money and time because we don't know where the animals are 
going to be and when. So it is much better for us if we can 
find, if it is possible to find, concentrated areas where 
nutria are moving, either seasonally or during the day, so that 
we can utilize the limited resources that we have to get the 
most animals.
    We also want to understand where the animals are because 
there is a problem of not being able to find them. We can trap 
and kill the animals we see, but we also understand that 
animals are moving where we can't see them, so we need to find 
that out. We also want to understand the reproductive biology.
    For instance, with coyotes, let's take coyotes as an 
example, we thought we could eradicate coyotes, and found out 
that it is probably not possible just because of their 
reproductive biology and the way they respond to population 
declines or litter loss. You know, they are very prolific. We 
need to understand that kind of biology in nutria here, in 
order to not end up having more nutria because we eradicate--
    Mr. Gilchrest. So the coyote has the ability to adapt to a 
changing habitat, and nutria are likely to be able to adapt to 
a changing habitat?
    Ms. Thompson. Nutria might--what coyotes can do is 
immediately replace young that are lost. The female can store 
sperm for an indefinite period of time. So it is very 
difficult. If you go in and remove puppies and not the parents, 
they will immediately reproduce again. They are also very 
adaptable.
    But we don't know that much about nutria and their 
reproductive biology to be confident that when we start a 
control program, there are some people who say eradication may 
be difficult to achieve. If we understand at some point we are 
going to be removing animals and there will be less animals in 
a population, then those that remain, we are trying to answer 
the question, what is their reproductive response to that? Does 
it increase?
    Mr. Gilchrest. Is the pilot project the same on Blackwater 
as it is on Tudor? Is it just one pilot project?
    Ms. Thompson. Yes, one pilot project on all three sites, 
and with that data we will be able to more effectively, 
hopefully eradicate them in a way that doesn't waste resources.
    Mr. Gilchrest. Now, Dan, as the pilot project continues and 
then it is finally complete, and there is some understanding of 
the best way to eliminate or reduce significantly nutria, is 
Fish and Wildlife looking at areas where this pilot project can 
then be replicated in areas around the country to eliminate 
nutria?
    Mr. Ashe. I think I wouldn't say the pilot project. I would 
say if--
    Mr. Gilchrest. I guess you wouldn't have to replicate the 
pilot project, but what is learned from this pilot project, 
does Fish and Wildlife then target areas where there is 
problems with nutria?
    Mr. Ashe. If we can do intensive control and if we can 
achieve eradication, then that certainly is something that--I 
mean, you can look at all those red States on that map and in 
terms of the lower 48 it probably represents close to half of 
our refuge units in the lower 48 States. So it certainly would 
be something that we could then think about transporting.
    I have to, in the back of my mind, sit here and think if 
the Great Britain experience is translatable to the Eastern 
Shore. I mean, island ecology is different than continental 
ecology, and I can almost see where the Delmarva Peninsula, you 
can almost treat the Delmarva Peninsula in the same context as 
you can island ecology.
    Louisiana, Arkansas, Mississippi, I don't know and I can't 
tell you at this point, even if we could eradicate the nutria 
from the Eastern Shore of Maryland, if that is transferable to 
Louisiana or Texas. It may not be, and so we certainly need to 
learn more as we move through the pilot project and then into 
and through implementation. If we can eradicate on the Eastern 
Shore or on the Delmarva Peninsula, it doesn't mean that that 
is directly translatable to the continent as a whole.
    Ms. Thompson. Yes. It sounds like we need to be able to--
    Mr. Gilchrest. What area does the pilot project cover?
    Ms. Thompson. It covers Dorchester County, those three 
sites, Tudor Farms, Fishing Bay Wildlife Management Area, and 
Blackwater.
    Mr. Gilchrest. Where else on the Delmarva Peninsula have 
nutria been spotted or seen or known to be?
    Ms. Thompson. From Delaware to the southern tip of 
Virginia.
    Mr. Gilchrest. Queen Anne's County?
    Ms. Thompson. Sure.
    Mr. Gilchrest. Kent County?
    Mr. Sherfy. Yes.
    Ms. Thompson. Sure.
    Mr. Gilchrest. They are in Kent County? Where are they in 
Kent County?
    Mr. Sherfy. I can't give you a specific site, but every 
Eastern Shore of Maryland county has nutria, from Kent County 
all the way down.
    Mr. Gilchrest. But you don't know where in Kent County?
    Mr. Sherfy. I can't give you a specific site. Robert Colona 
from the DNR could.
    Ms. Thompson. We can get that for you.
    Mr. Gilchrest. I would like to have where on Delmarva 
nutria are found.
    Ms. Thompson. Okay.
    Mr. Gilchrest. That is interesting, yes. But I guess it 
would be easily transferable, the pilot project, certainly to 
the coastal areas of Virginia, I would guess.
    Ms. Thompson. Yes.
    Mr. Ashe. And it is like I mentioned salt cedar before. At 
our refuges in the Southwest, and we are learning how to 
eradicate salt cedar. It is a slow, as I said, acre-by-acre 
process, and so we are learning how to do it. Most of the time 
it involves chemical spraying and burning and tilling the 
landscape, and then we have to manage water to prevent the salt 
cedar from coming back and select for the native cottonwood.
    It is a very difficult process, but we are learning how to 
do it. But just doing it on our refuges is a stopgap measure. 
Then we have to work with BLM and tribes and States to try to 
accomplish the same thing on a larger scale. And so we can 
translate the technique that we have, but it has to be exported 
or else in the long run you haven't really accomplished very 
much.
    Mr. Gilchrest. Is there an estimate as to the number of 
nutria in this area?
    Ms. Thompson. I think the estimate in Blackwater is 35,000 
to 50,000 animals.
    Mr. Gilchrest. Any rough estimate as to how many there are 
in Delmarva?
    Ms. Thompson. I don't know.
    Mr. Sherfy. Not that I am aware of.
    Ms. Thompson. Not that I am aware of, no.
    Mr. Gilchrest. Staff just told me that there is 22 million 
in Louisiana, rough estimate, so I wouldn't guess we have 
anywhere near that many, but I guess that is across the State.
    Ms. Thompson. Yes. Louisiana has a lot more coastal marsh, 
too, habitat for them.
    Mr. Gilchrest. I know the hour is moving along and we have 
some other places to go to today, and people are getting tired, 
probably want to eat lunch, but just a couple more questions 
and we will get out of here in the next 10 or 15 minutes, I 
promise.
    We look forward to working aggressively with the nutria 
problem on Blackwater, Tudor Farms, the Delmarva Peninsula, in 
the hopes that we can completely eradicate on a watershed basis 
this little critter. Some other invasive species such as 
phragmites, gypsy moth, mute swans, are still a problem and 
they will be with us for quite some time.
    What I would like to do, Mr. Tillier, as Friends of 
Blackwater, do you have any recommendation from your group or 
personal opinion on what to do with the mute swans?
    Mr. Tillier. Well, we would definitely like to see them 
disappear.
    [Laughter.]
    I don't know what we could specifically recommend, but I 
would say this, that the Friends of Blackwater would certainly 
be supportive in any kind of project that would assist the 
refuge in its efforts to come to grips with this sort of thing. 
We have a board of directors, and we have among our volunteers 
a lot of knowledge and a lot of interest in what is going on on 
the refuge in terms of invasive species, whether they be animal 
or whether they be vegetation. So we would be entirely 
supportive of any kinds of control mechanism, I assure you.
    Mr. Gilchrest. Does the Friends of Blackwater, are you 
vocal, do you express those sentiments in the local media and 
things like that?
    Mr. Tillier. Sure. We will--
    Mr. Gilchrest. And I ask that question because apparently 
there is, you know, across the country there are a lot of 
organizations that are, animal rights groups that are highly 
opposed to shaking eggs, to expanding hunting seasons or things 
like that.
    Mr. Tillier. We have people here in the county who are very 
vocal in terms of what you speak. But we will take any 
opportunity at any point in time to be supportive of anything 
that the refuge does, and we would do it through our Speaker's 
Bureau, we do it through any opportunity, wherever we have the 
opportunity to be interviewed on any of those subjects.
    Mr. Gilchrest. Thank you.
    Mr. Willey, any comment on mute swans?
    Mr. Willey. On the mute swan, they are scattered throughout 
the Delmarva Peninsula. I mean, they go all the way up to the 
canal, all the way down. When we fly the eagle surveys, we see 
them, you know, nesting all over the place.
    What we have been doing is reporting, you know, to the 
State, you know, where they are nesting at. That is probably 
the best time to try to, you know, get a handle on it. But 
since they are so spread out, there is little pockets of them.
    I know here on Blackwater, they didn't used to be here, and 
now there is one or two, you know, scattered on the refuge. 
Most of them do lie between, out on the coast, from Talbot 
down, you know, all the way down to I guess the biggest 
population in the Honga River. I guess that is probably the 
biggest population still left of all the river populations, and 
the one out on Barren Island.
    They could probably be eradicated, since they--
    Mr. Gilchrest. Do you have any recommendation on how to do 
that?
    Mr. Willey. Yes, I have a recommendation.
    [Laughter.]
    But the Friends of Animals, you do have a lot of groups 
that really love that bird, and when you talk about killing 
that big white bird, it is a different story than killing a 
blackbird. You know, it is like killing the eagle. When you 
talk about--
    Mr. Gilchrest. It is the difference between a tuna fish and 
a dolphin.
    Mr. Willey. No, I will tell you, probably--you know, again, 
I don't know if Dan--it probably doesn't come under his, come 
under migratory birds, does it, Dan, because it is exotic?
    Mr. Ashe. Exotic.
    Mr. Willey. So it is up to the State. The State, if they 
could get enough people to say we are going to eradicate them, 
we don't want a mute swan, it would be against the law to have 
a mute swan. But you have got people in Cambridge and all that 
I know, close to where Laddie lives, and you go around there to 
disturb that swan and you have got cameras come out, videos 
come out, and you are in big trouble. You better not go shaking 
no eggs around there, you know.
    [Laughter.]
    And they are nesting, you know, on little clumps right in 
the town, you know, right in the city, right in the creek, and 
they are aggressive. They will come after you.
    Mr. Gilchrest. Thank you. We will see what we can do with 
the present and future administrations.
    Mr. Willey. I think the State, you know, I think that is a 
State problem, really. I think the State, if you got enough, if 
people got enough influence with the people that are in 
office--and I doubt if you would do it in Maryland with the 
climate right now, really, with the type of--
    Mr. Gilchrest. Well, I think the climate is changing. That 
is what I hear. There is climate change happening all over the 
world. Maybe this will bring in a new regime.
    Mr. Johnson?
    Mr. Johnson. You are in luck. I chaired the task force on 
mute swan for the State of Maryland, and the first thing I did 
was get Edith Thompson to come in as the facilitator, because I 
wasn't going to take that chairmanship on myself. So Edith came 
in and facilitated that task force. It took two years. So, 
Edith, could you summarize real quick what the task force came 
up with?
    Ms. Thompson. Sure. We had a task force, a citizen task 
force, to give us some recommendations on what to do about the 
mute swan issue, to define mute swan issues for us. We had 
representation from the Humane Society, the SPCA and Defenders 
of Wildlife, as well as economic and conservation, Chesapeake 
Bay, conservation interests in the Eastern Shore and the 
Chesapeake Bay. And we talked for two years, as Ladd said, 
about this. We wrote an extensive report which is on our web 
site.
    And basically the issue boils down to two things. One is 
that the submerged aquatic vegetation in the Chesapeake Bay is 
very stressed, and it is the one living resource upon which all 
life in the Chesapeake Bay depends. So if we have no SAV, we 
have no crabs, no fish, no nothing. It also, you know, 
contributes oxygen to the water and prevents soil erosion and 
recycling of sedimentation, which in turn creates no sunlight 
for the SAV.
    So what happens is, the SAV species have evolved to 
reproduce, to produce mature seed during a period of time when 
the large flocks of waterfowl that migrate here are not here. 
The water celery is one good example. It creates a pod which 
rises up to the surface of the water, and then as the waterfowl 
arrive, it hides it until those seeds are mature. If waterfowl 
were to take those seeds while they are immature, they would 
pass through the bird's system without being able to be 
dispersed and planted and used. So it hides this pod so that 
that doesn't happen until the seeds are mature, and then it 
raises up again, and the waterfowl eat it and it becomes 
dispersed.
    But here you have a species of waterfowl that is extremely 
large. It needs a lot of food. It primarily eats SAV. It is 
here all year. Its population is growing exponentially, which 
means that as a population of any creature, humans or whatever, 
grows exponentially, the percentage of juveniles in that 
population increases.
    We have 50 percent juveniles out now. Those birds spend 
three years together in big flocks. We have had up to 600 or 
more than 600 birds off of Blackwater. They cruise the Bay, and 
even though we have about 4,000 birds now and maybe we can live 
with 4,000 birds, as these birds' population goes up like that, 
they are going to come into conflict with the ability of SAV to 
regenerate itself, and this is the problem. It is a serious 
social problem--
    Mr. Gilchrest. Do you have a recommendation as to what to 
do with the mute swan? That was a great explanation, by the 
way. That was--
    Ms. Thompson. Okay. Well, the task force actually did not 
deal with the population issue at all. They didn't want to do 
that, and I can understand why, so that is kind of left to us. 
But they did talk about the need to protect those resources, 
the sensitive SAV areas, places where they are coming into 
conflict with humans, and of course here at Barren Island where 
they come into conflict with State threatened colonial nesting 
water birds. They actually eliminated a nesting colony of black 
skimmers and least terns, and it was the last nesting colony of 
black skimmers in this part of the Bay, and it was the last 
natural nesting colony of least terns.
    Mr. Gilchrest. So nobody in this State--
    Mr. Johnson. We did.
    Mr. Gilchrest. Oh, you guys did.
    Ms. Thompson. We killed some birds. Okay, we killed some 
birds. This was videotaped, and so on and so on, and turned up 
in the news media, which I have to say has been very supportive 
of us since then. But the task force recommended various ways 
of excluding the birds from these areas, of controlling those 
local populations that are having these impacts on the 
sensitive resources.
    They have advised us on everything from explosives, 
pyrotechnics, to trying to look at vasectomy of birds, and 
moving nonfertile birds to certain areas. We have looked at egg 
addling. We need to do very aggressive egg addling. Most nests 
are on private land, so we started this year with an aggressive 
egg addling campaign with volunteers. And we have been advised 
on lethal methods, as well, and the task force recommended that 
lethal methods be used when other methods have failed to 
protect those resources from the birds.
    We still do, though, have the issue of the increasing 
population of birds and where do those birds go? If we exclude 
them successfully from these sites--
    Mr. Gilchrest. Can they be hunted, mute swans?
    Ms. Thompson. They can be. They are a game species in 
Maryland. However, there is no regulated hunting season on mute 
swans and has never been. They have always been a game species 
in Maryland, but there has never been a regulated hunting 
season.
    Mr. Gilchrest. So a game season, but people can't hunt?
    Ms. Thompson. Right, they are a game bird, but we just have 
never created a regulated season.
    Mr. Gilchrest. If you create a regulated season, would that 
help diminish the population?
    Ms. Thompson. Possibly, sure.
    Mr. Gilchrest. The problem there would be, how do you tell 
the difference between--
    Mr. Johnson. Easy.
    Mr. Gilchrest. Oh, I figure an experienced person could 
tell the difference between a mute swan--
    Ms. Thompson. And the tundra.
    Mr. Gilchrest. --and a swan that just came down from 
Alaska.
    Ms. Thompson. You would have a hunting season when the 
tundras were not here, of course, so there would be no--
    Mr. Gilchrest. That is right.
    Ms. Thompson. --ability to make that mistake. But actually 
the task force recommended no hunting season. The reason was 
because, you know, the animal welfare organizations in Maryland 
are quite vocal and do share their thoughts with us a lot, and 
we want to be responsive, and we are concerned about--
    Mr. Gilchrest. Nobody else is quite as vocal?
    Ms. Thompson. We do have some, we do have quite a lot of 
vocal people out here. Maryland is one of those States, which 
is a good thing. But we want to be responsive, and what we 
don't want to do is create a situation that will cause such a 
backlash in that vast majority of people who are unaware--
    Mr. Gilchrest. How much time do we have before these guys 
are so large in number that the SAVs are--
    Ms. Thompson. Not a lot of time. I mean, we don't know when 
they will really conflict with and damage SAV. We can't even 
say that has happened yet, except in local areas. They are--
    Mr. Gilchrest. The people that are opposed to eradicating 
or finding some way to shake the eggs or a hunting season, the 
animal rights groups, I guess, do they have any solution to the 
SAV problem?
    Ms. Thompson. My personal experience with it, having dealt 
with it for the past six months or something, or two years, is 
that there is an animal rights agenda which is very clearly no 
killing of animals ever, under any circumstances--and that is a 
very small minority of people. We can show that statistically.
    And then there is a large group of people, members of the 
Humane Society and members of Friends of Animals, members of 
these organizations, who really don't understand all the 
issues. They value the Chesapeake Bay as much as they value the 
mute swan. But when they are presented with this information by 
the animal welfare organizations, they are not given that kind 
of information.
    Mr. Gilchrest. The full story.
    Ms. Thompson. They are told that the Department of Natural 
Resources is a morally bankrupt organization that simply wants 
to kill things. Yes. And that we are irresponsible and not 
willing to look at alternatives, which is completely untrue. So 
I have had to, person by person, person by person, talk to 
people to tell them what the whole issues are and explain to 
them their role, their empowered role in helping to resolve 
this very sticky situation.
    Mr. Gilchrest. Mr. Johnson?
    Thank you very much, Ms. Thompson.
    Mr. Johnson. After that task force reached their 
conclusion, the Waterfowl Commission, it was then referred back 
to the Waterfowl Commission, who then referred it to the Game 
Commission here in Maryland. The Waterfowl Commission took a 
more aggressive stance. The Waterfowl Commission passed 
unanimously to make the mute swan a nonprotected bird in 
Maryland, and to also reduce their numbers from 4,000 to 500 in 
five years.
    The reason 500 was chosen, during the '80's the population 
remained at 500. It was in the '90's that we had the population 
explosion. So we picked that magical number of a decade there 
that it didn't seem to go up or down, and it was manageable by 
egg addling at that time.
    But under today's population, we estimate that 12 million 
pounds of SAVs are being destroyed annually by mute swan in 
Maryland, that is probably a conservative figure. They have now 
spread to the Potomac and other tributaries, where they are no 
longer concentrated here on the Bay.
    So the Department is doing their strategy now, and I think 
it is going to come probably in pretty close to what the 
Waterfowl Commission recommended, to take an aggressive 
approach to this population.
    Mr. Gilchrest. I see. One last question, and I don't know 
if you know this, Dan. Maybe we can get Glenn to stand up and 
give it to us, if you don't know. Could you tell us what the 
major O&M needs on Blackwater are and what they might cost?
    Mr. Ashe. I am going to let Glenn answer that, but I can't 
let the opportunity pass without saying something about the 
mute swan. Because I really don't know much about mute swans, 
but what the discussion says to me on the issue of invasive and 
exotic species generally, is that we have a lot of education to 
do, and it is something that we in the wildlife field don't do 
very well. And I think that you can probably help us by putting 
more of a burden on us to do a better job of communicating, 
because people need to understand.
    This is like a patriotic issue to me, because these species 
are crowding out native species. I mean, we are losing our 
American wildlife heritage because we are unable, our wildlife 
managers are unable, not because they don't know how to do it, 
but because politically they are unable to do the job. And we 
have to do a better job of educating Americans about the need 
for wildlife management, the need to manage mute swans, the 
need to manage nutria, the need to manage salt cedar, the need 
to manage phragmites.
    Because a lot of times people see us out there spraying 
phragmites with chemicals, or burning marshes, and they 
appropriately ask us questions about that, which is their right 
and privilege. But we need to increase people's understanding 
of why we need to do that, because we are losing a war. We are 
definitely losing. Education is the solution, and it is 
something that we don't put much effort into and we don't do 
very well.
    Mr. Gilchrest. Maybe we can help, collectively with the 
people here, strategize at least in this part of the world.
    Mr. Ashe. You asked a question about the refuge O&M here, 
and Glenn is much, much more capable than I to answer that 
question.
    Mr. Carowan. The refuge operation needs on Blackwater I 
think are reflective of the needs in the system. Certainly we 
can categorize those into three initiatives that we see:
    Needs for people, particularly the needs reflective of the 
Improvement Act with the six priority public uses. Certainly 
Blackwater right now has a visitation of about a half million 
people a year, and we are not really equipped, just like I 
think Ron mentioned the fact that we had 1,350 people here in 
this facility on one day. So certainly there is a major need to 
address how we interact with our public and provide facilities 
for our people.
    Habitat issues on the complex, not just on Blackwater 
Refuge, but there are significant problems with wetland 
restoration, as we have discussed, those operational dollars 
that are needed to facilitate those things.
    And then our wildlife management responsibilities that we 
have, again not just here at Blackwater but on the complex, to 
go out and do the science that is necessary to address the 
issues that we discussed today, whether it be mute swans or 
whether it be nutria or invasive species, or just to address 
the issue of whether or not we do intensive management versus 
passive management. We need those population numbers, we need 
to develop that good science.
    And so that is where we see our operational needs coming on 
the refuge, not just on Blackwater but again on the system as a 
whole. If you want to put that in dollars, I think we have 
operation needs, within our refuge operation needs system now, 
probably of about $5 million worth of projects that are 
identified on Blackwater and the other refuges in the complex. 
So I hope that answers your question.
    Mr. Gilchrest. Thank you, Glenn.
    Ron?
    Mr. Tillier. May I just add one comment?
    Mr. Gilchrest. Sure.
    Mr. Tillier. And that is, one thing that struck me in the 
items that I mentioned was the fact that when we are talking 
about people on the refuge, is that our outdoor recreation 
planner here is one individual. But when you consider that over 
a 10-year period, that this individual, because of lack of 
funding for one full-time employee, had 44 part-time employees, 
I ask you to consider the efficacy of this. Because the time 
that she takes to train a person, and by the time that person 
is trained to do anything, you know, that person leaves, so it 
is really not very efficient at all, and I would suggest 
probably horribly expensive vis-a-vis giving the refuge an 
individual to be in the system here.
    I just wanted to add that comment. Thank you.
    Mr. Gilchrest. Thank you very much.
    Mr. Ashe, Ms. Thompson, Mr. Tillier, Mr. Johnson, and Mr. 
Willey, this was, at least for me and I think probably 
everybody in the room, an extraordinary two hours of exchanging 
information. We will take all of this to heart and continue to 
work with all of you to reach the goal of making our refuges a 
place that we can be proud of, and certainly provide the 
habitat for a diverse range of wildlife, and a place where 
people can come and recreate and learn and wonder and ponder 
about the wonders of creation, right here in Blackwater.
    And I look forward to the canoe and kayak trails, and I 
would like to come back down here sometime, maybe, Glenn, this 
late spring, early summer, with a canoe and paddle around 
through these vast and wonderful places. We can have the next 
hearing with a block of canoes.
    I also want to thank the staff of the Subcommittee for 
setting all this up, doing a great job, and my personal staff, 
and in an indirect way the nutria for getting us all together. 
The hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

                                   - 
</pre></body></html>
